   April 19, 2006




Human Capital
DoD Security Clearance Process at
Requesting Activities
(D-2006-077)




             Department of Defense
            Office of Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
DES-DE                Defense Logistics Agency Enterprise Support Europe
DSS                   Defense Security Service
EPSQ                  Electronic Personnel Security Questionnaire
e-QIP                 Electronic Questionnaire for Investigations Processing
GAO                   Government Accountability Office
IG                    Inspector General
JPAS                  Joint Personnel Adjudication System
NAC                   National Agency Check
OPM                   Office of Personnel Management
PSI                   Personnel Security Investigation
USD(I)                Under Secretary of Defense for Intelligence
                              INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704




                                                                              April 19, 2006

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR INTELLIGENCE
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
               NAVAL INSPECTOR GENERAL
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE INFORMATION SYSTEMS AGENCY
               DIRECTOR, DEFENSE LOGISTICS AGENCY

SUBJECT: Report on DoD Personnel Security Clearance Process at Requesting Activities
         (Report No. D-2006-077)


        We are providing this report for review and comment. We considered
management comments when preparing the final report. The Under Secretary of Defense
for Intelligence comments conformed to the requirements of DoD Directive 7650.3;
therefore, additional comments are not required.

       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Department of the Army, Department of the Navy, and Defense Information Systems
Agency comments were partially responsive. The Department of the Air Force did not
provide comments on Recommendation 3. The Defense Logistics Agency comments were
nonresponsive. We request additional comments from all on Recommendation 3. by
May 19,2006.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AudCM@dodig.mii. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

        We appreciate the courtesies extended to the staff. Questions should be directed to
Ms. Kimberley A. Caprio at (703) 604··9202 (DSN 664-9202) or Mr. Riccardo R. Buglisi
at (703) 604-9314 (DSN 664-93 14). For the report distribution, see Appendix D. The
team members are listed inside the back cover.

                                By direction of the Deputy Inspector General for Auditing:

                                     ~Aj.
                                                  Richard B. Jolliffe
                                            Assistant Inspector General
                                        Acquisition and Contract Management
                  Department of Defense Office of Inspector General

Report No. D-2006-077                                                      April 19, 2006
 (Project No. D2005-D000CB-0136.000)

         DoD Personnel Security Clearance Process at Requesting Activities


                                   Executive Summary


Who Should Read This Report and Why? Officials in the Office of the Under
Secretary of Defense for Intelligence and the Defense Security Service, and management
and personnel in the Services and Defense agencies responsible for security clearances
and personnel security investigations should read this report. The report discusses
impediments to the DoD security clearance process and the need to develop and issue
policy to ensure consistent implementation of the personnel security clearance program.

Background. This report discusses the DoD personnel security clearance process at
requesting activities. Security clearances and personnel security investigations are key
elements in protecting national security by determining whether a person is eligible under
DoD policy for access to classified information, including top secret, secret, and
confidential. In January 2005, the Government Accountability Office identified
long-standing delays in completing investigations, a growing backlog, and no effective
method to estimate total workload requirements within DoD. Such problems with
timeliness and quality in the personnel security clearance process can affect our national
security.

Results. All 26 DoD military and civilian requesting activities we visited experienced
difficulties in effectively and efficiently processing personnel security investigation
requests for military and civilian personnel. Specifically, requesting activities were
unable to rely on the Joint Personnel Adjudication System for accurate and complete
personnel data, experienced increased workloads, and received rejected personnel
security investigation requests from the Office of Personnel Management. Additionally,
security personnel were not always knowledgeable in the personnel security process and
systems used. Finally, the DoD controls over the management of the DoD Personnel
Security Clearance Program were not sufficient to ensure that the requesting activities
could efficiently and effectively process DoD personnel security clearance requests. As a
result, requesting activities may continue to experience delays in the security clearance
process, which may impact national security, completion of critical DoD missions, and
support of the warfighter. The Office of the Under Secretary of Defense for Intelligence
should update DoD policy for the security clearance program, establish guidelines for
publishing the policy, and coordinate with the Services and Defense agencies to improve
communication with requesting activities and expedite resolution of identified issues. In
addition, the Services, Defense Information Systems Agency and Defense Logistics
Agency should update their respective policies for the personnel security clearance
program in accordance with DoD policy. (See the Finding section for detailed
recommendations.)
Management Comments and Audit Response. The Under Secretary of Defense for
Intelligence, Acting Director of Security concurred, stating that the organization is
working on drafting an update to DoD Regulation 5200.2-R and expect to have a draft
ready for staffing and coordination by July 2006, with publication anticipated by summer
2007. The Acting Director also stated that the organization is exploring options to best
communicate with DoD Components on changes to the security clearance process and
future plans, and to solicit input from field activities. The Army Director,
Counterintelligence, Human Intelligence, Disclosure and Security Directorate, Office of
the Deputy Chief of Staff, G-2 partially concurred with the recommendation to update
Army policy, stating that complete security clearance information is available via Army
memoranda and other communication. While issuing memorandums supplements Army
Regulation 380-67, the Regulation should be updated to include current information on
program management and investigative responsibilities, security clearance systems,
training requirements, and submission processes, types, and scopes of personnel security
investigations. The Chief of Naval Operations, Special Assistant for Naval
Investigations and Security partially concurred with the recommendation, stating that a
Navy personnel security program policy is due for signature in May 2006, and that the
Navy Security Web site contains additional information on the security clearance
process. While these actions met the intent of the recommendation, the Secretary of the
Navy Instruction 5510.30A did not provide information on the contents of the Navy
Personnel Security Program Policy Regulation, which should include updated or
complete information on investigative responsibilities, security clearance systems,
training requirements, or submission processes, types and scopes of personnel security
investigations. The Air Force Director of Security Forces, Information Security did not
comment on the recommendations, but maintained that Air Force Instruction 31-501
contains information on the personnel security clearance program, but lacked training
requirements. However, the Air Force Instruction lacked complete information on the
types and scopes of personnel security investigations.

The Defense Information Systems Agency Director, Manpower, Personnel and Security
generally concurred with the recommendation, noting that the Security Division is
revising the Defense Information Systems Agency Instruction 240-110-8, which is
estimated for completion in May 2006, and that information on the personnel security
clearance process is included in the Defense Information Systems Agency Personnel
Security Standard Operating Procedures. However, the standard operating procedures
and training requirements should be included or referred to in the updated Defense
Information Systems Agency Instruction 240-110-8. The Director, Defense Logistics
Agency Enterprise Support partially concurred with the recommendation and stated that
the Defense Logistics Agency One Book or Personnel Security Program Guidebook
provides information on the critical elements of the personnel security clearance process,
and that despite lack of written training requirements, personnel security specialists are
trained at least every 2 years. However, the policy did not include complete information
on the types and scopes of personnel security investigations. Additionally, while the
Defense Logistics Agency internal training meets the intent of the recommendation, the
Defense Logistics Agency policy should include training requirements.

We request that the Army Deputy Chief of Staff for Intelligence; Director, Naval
Criminal Investigative Service; Air Force Director of Security Forces, Information
Security; Defense Information Systems Agency Director, Manpower, Personnel and
Security; and Director, Defense Logistics Agency provide comments on the final report
by May 19, 2006. See the Finding section of the report for a discussion of management
comments and the Management Comments section of the report for the complete text of
the comments.

                                            ii
Table of Contents


Executive Summary                                                             i


Background                                                                    1


Objectives                                                                    3


Managers’ Internal Control Program                                            4


Finding
     Effectiveness and Efficiency of the Security Clearance Process at DoD
        Requesting Activities                                                 5



Appendixes
     A. Scope and Methodology                                                23
     B. Prior Coverage                                                       25
     C. Types and Scopes of Personnel Security Investigations, Security
         Clearance Levels, and Required Documentation                        26
     D. Report Distribution                                                  28

Management Comments
     Under Secretary of Defense for Intelligence                             31
     Department of the Army                                                  35
     Department of the Navy                                                  38
     Department of the Air Force                                             40
     Defense Information Systems Agency                                      41
     Defense Logistics Agency                                                45
Background
            Personnel Security High Risk Area. For over a decade, Government
            Accountability Office (GAO) reports have documented persistent problems in the
            DoD security clearance process. In January 2005, GAO designated the DoD
            Personnel Security Clearance Program as a high-risk area due to long-standing
            delays in completing investigations, a growing backlog, no effective method to
            estimate total workload requirements, and because DoD has approximately two
            million active security clearances. Such problems with timeliness and quality in
            the personnel security clearance process can affect our national security.
            Specifically, delays in completing clearances can result in negative consequences
            such as nonproductive time while awaiting clearances and the loss of highly
            qualified candidates. Delays in renewals of clearances for persons already doing
            classified work can lead to a heightened risk of disclosure of classified
            information. In the FY 2005 “Annual Statement Required Under the Federal
            Managers Financial Integrity Act of 1982,” DoD reported 329,000 pending
            security clearance investigations for DoD military, civilians, and contractors. 1

            Security Clearances and Personnel Security Investigations. Security
            clearances and personnel security investigations (PSI) are key elements in
            protecting national security. A security clearance is a determination that a person
            is eligible under DoD policy for access to classified information. Clearances
            allow personnel to access classified information categorized into three levels: top
            secret, secret, and confidential. The damage to national defense and foreign
            relations that unauthorized disclosure could reasonably be expected to cause
            ranges from “exceptionally grave damage” for top secret information to “damage”
            for confidential information. A PSI is an inquiry into an individual’s loyalty,
            character, trustworthiness, and reliability to ensure that he or she is eligible to
            access classified information or for an appointment to a sensitive position or
            position of trust. DoD uses PSIs to determine an individual’s eligibility for a
            security clearance. The types of PSIs vary based on the level of security
            clearance necessary for a given sensitive position. DoD Regulation 5200.2-R,
            “Personnel Security Program,” January 1987, outlines criteria for sensitive
            positions and the corresponding clearance levels. Each clearance level requires a
            different type of PSI. For additional information, see Appendix C.

            DoD Policy. DoD Directive 5200.2, “DoD Personnel Security Program,”
            April 1999, establishes policy to ensure that military, civilian, and contractor
            personnel assigned to and retained in sensitive positions are and remain reliable,
            trustworthy, and loyal to the United States. Additionally, DoD
            Regulation 5200.2-R establishes DoD personnel security policies and procedures;
            prescribes the types and scopes of PSIs; and provides criteria, standards, and
            guidelines upon which DoD should base personnel security determinations. The
            Directive assigns oversight responsibility for the DoD Security Clearance
            Program for military, civilian, and contractor employees to the Under Secretary of


1
    Our audit addressed only the security clearance process at requesting activities for DoD civilian and
    military personnel. We did not review the security clearance process for contractors.

                                                        1
           Defense for Intelligence (USD[I]). 2 Within USD(I), the Deputy Under Secretary
           of Defense for Counterintelligence and Security is responsible for the DoD
           Personnel Security Clearance Program. In addition to the DoD-level policy, the
           Services and Defense agencies also developed policies for the Personnel Security
           Clearance Program. 3 We reviewed policies for the Army, Navy, Air Force,
           Defense Information Systems Agency and Defense Logistics Agency.

           Intelligence Reform and Terrorism Prevention Act of FY 2004. In July 2004,
           the National Commission on Terrorist Attacks Upon the United States released a
           comprehensive report chronicling the circumstances leading up to the terrorist
           attacks of September 11, 2001. The report identified that the security clearance
           process could not satisfy the demand for personnel security clearances within the
           Federal Government or private sector. As a result, Section 3001 of the
           Intelligence Reform and Terrorism Prevention Act of FY 2004 (Intel Reform Act)
           reformed the personnel security clearance process. The Intel Reform Act
           describes reducing the length of the security clearance process and setting goals
           for the process. The Intel Reform Act states that by December 2006, investigative
           agencies should complete at least 80 percent of the PSIs within 120 days,
           allowing 90 days for investigation and 30 days for an eligibility determination.
           The Intel Reform Act decreases these timelines in December 2009, when
           investigative agencies and central adjudication facilities must complete at least 90
           percent of PSIs within 40 and 20 days, respectively.

           Key Agencies in the Security Clearance Process. In addition to USD(I), three
           key agencies are involved in the DoD security clearance process: the Office of
           Management and Budget, the Defense Security Service (DSS), and the Office of
           Personnel Management (OPM). In response to the Intel Reform Act, the
           President designated the Office of Management and Budget to be responsible for
           the security clearance process. DSS, under the direction, authority and control of
           USD(I), offers comprehensive security education and training to DoD and other
           Government entities, and is also responsible for managing the Joint Personnel
           Adjudication System (JPAS). OPM conducts PSIs for DoD civilian and military
           personnel requiring initial or continued access to classified material, and for
           individuals in positions of trust.

           Service and Defense Agency Level Responsibilities. Each Service has
           designated offices responsible for the personnel security clearance program. For
           the Army, the Deputy Chief of Staff for Intelligence (Army G-2) is responsible
           for formulating policy that governs Army personnel security and submitting PSI
           requests. The Navy designated the Director, Naval Criminal Investigative Service
           as the responsible party for establishing, directing, and overseeing the Navy
2
    The Defense Authorization Act for FY 2003 established USD(I) in May 2003 to organize all intelligence
     and intelligence-related oversight and policy guidance functions within the Office of the Secretary of
     Defense. Prior to May 2003, DoD assigned duties associated with the DoD Security Clearance Program
     to the Assistant Secretary of Defense for Command, Control, Communications, and Intelligence.
3
    Army Regulation 380-67, “Personnel Security Program,” dated September 9, 1988; Navy Instruction
    5510.30A, “Department of the Navy Personnel Security Program,” dated March 10, 1999; Air Force
    Instruction 31-501, “Personnel Security Program Management,” dated January 27, 2005; Air Force
    Policy Directive 31-5, “Personnel Security Program Policy,” dated August 1, 1995; Defense Information
    Systems Agency Instruction 240-110-36, dated November 22, 2002; and Defense Logistics Agency
    Directive 5025.30, dated March 18, 2005.

                                                       2
    personnel security clearance program. The Chief, Information Security Division,
    Air Force Chief of Security Forces is responsible for developing Air Force
    personnel security policy. In addition, Defense agencies we visited assigned
    responsibilities for the personnel security clearance program. The Defense
    Finance and Accounting Service assigned responsibility for the personnel security
    clearance program to the Director, Human Resources. The Defense Information
    Systems Agency assigned the Manpower Personnel, and Security Directorate
    Chief, Security Division to be responsible for personnel security clearance
    program, and the Defense Logistics Agency assigned the Staff Director, Defense
    Logistics Agency Enterprise Support, Public Safety Office.

    Transfer of Investigative Function. On February 20, 2005, DoD transferred the
    PSI function from DSS to OPM to improve the timeliness of PSIs and allow DoD
    to concentrate its efforts on other security functions that are part of the
    Department’s core mission responsibilities. According to DoD officials involved
    in the transfer, DoD represents approximately 80 percent of the investigative
    workload for OPM. The Memorandum of Agreement transferring the PSI
    function to OPM requires DoD and OPM to work with the Office of Management
    and Budget to develop a Joint Improvement Plan specifically addressing
    timeliness of the overall security clearance process.

    After the transfer, DSS established the DSS Clearance Liaison Office to support
    USD(I) with oversight, planning, developing, and communicating DoD policies
    regarding the DoD Personnel Security Program. The DSS Clearance Liaison
    Office is an intermediary for DoD, DoD Components (including industry and
    central adjudication facilities), and OPM for security clearance issues. The DSS
    Clearance Liaison Office also assists and supports planning, procedures, studies,
    and policies in USD(I). The DSS Clearance Liaison Office focuses on systemic
    issues, serves as the DoD facilitator to OPM, and helps OPM prioritize DoD PSIs.
    The Clearance Liaison Office consists of seven employees functionally aligned
    with the Services, Defense agencies, and industry.


Objectives
    The overall objective was to determine whether the DoD personnel security
    clearance program was effectively and efficiently managed at the requesting
    activity level. Specifically, we evaluated the processes for determining security
    clearance requirements, initiating and updating security clearances, and
    monitoring the accuracy and completeness of personnel security questionnaires.
    We also evaluated the management control program as it relates to the overall
    objective. See Appendix A for a discussion of the scope and methodology and
    Appendix B for prior coverage related to the objectives.




                                         3
Managers’ Internal Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DoD management controls over the DoD Personnel Security
    Clearance Program. We also reviewed the adequacy of management’s
    self-evaluation of those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for DoD as defined by DoD Regulation 5200.2-R. DoD
    controls over the management of the DoD Personnel Security Clearance Program
    were not sufficient to ensure that the requesting activities could efficiently and
    effectively process DoD personnel security clearance requests. If management
    implements all recommendations, DoD may increase their ability to process
    security clearance requests in a timely manner. A copy of the report will be
    provided to the senior officials in charge of management controls for the DoD
    Personnel Security Clearance Program.

    Adequacy of Management’s Self-Evaluation. In FY 2003, USD(I) identified
    the personnel security investigations program as a systemic weakness within the
    Office of the Secretary of Defense because PSIs did not meet standard timeliness
    goals. DoD has made significant management and other changes to remedy this
    problem. The FY 2005 “Annual Statement Required Under the Federal Managers
    Financial Integrity Act of 1982” states that USD(I) will accurately track the
    number of investigations, cost, and other data for workload projections through
    improvements in JPAS. Additionally, USD(I) established timelines to determine
    performance results. USD(I) set the target corrective date of fourth quarter
    FY 2006.




                                         4
            Effectiveness and Efficiency of the
            Security Clearance Process at DoD
            Requesting Activities
            All 26 DoD military and civilian requesting activities we visited
            experienced difficulties in effectively and efficiently processing PSI
            requests for military and civilian personnel. This occurred because
            USD(I) did not:

                    •   establish training requirements for security managers, or

                    •   perform adequate management or oversight as required by
                        DoD Regulation 5200.2-R.

            In addition, USD(I), the Services, and Defense agencies we visited did not
            consistently update policy to include complete information on eight key
            elements. As a result, requesting activities may continue to experience
            delays in the security clearance process, which could impact the
            completion of critical DoD missions.


Security Clearance Process
     Process for Requesting Security Clearances. Although the process for
     requesting a security clearance differs slightly among DoD Components, the
     security clearance process has five phases: Pre-Investigation, Investigation,
     Adjudication, Appeals, and Reinvestigation. In the Pre-Investigation phase,
     requesting activities determine requirements for access to classified information
     and submit PSI requests via the Electronic Questionnaire for Investigations
     Processing (e-QIP) or the Electronic Personnel Security Questionnaire (EPSQ) to
     OPM. During the Investigation Phase, the investigative agency performs PSIs by
     conducting subject interviews and background investigations. In the Adjudication
     Phase, the central adjudication facility reviews the results from the Investigation
     Phase and recommends whether the individual is eligible for access to classified
     information. The Appeals Phase gives individuals the option to appeal an
     unfavorable recommendation from the central adjudication facility. Finally, in
     the Reinvestigation Phase, security managers maintain security records and track
     investigation dates for reinvestigation using JPAS. The figure on the following
     page depicts the security clearance process during each phase, the organizations
     involved, and the technologies used during the process.




                                          5
The DoD Security Clearance Process


            For purposes of this audit, we focused on the Pre-Investigation Phase. During the
            Pre-Investigation Phase, individuals selected for employment complete the
            appropriate PSI forms 4 based on the level of clearance they require. The security
            and human resources personnel then review the PSI forms for accuracy and
            completeness, collect all the appropriate documentation, and submit the PSI
            request 5 to OPM via mail or e-QIP. OPM reviews the information for accuracy
            and completeness, coordinates with the requesting activity to correct erroneous
            data, and schedules the individual’s PSI. For information regarding specific types
            of PSIs, levels of clearance, and required documentation, see Appendix C.

            Technology Used in the Security Clearance Process. DoD implemented
            various technologies to improve the security clearance process, including JPAS,
            EPSQ, and e-QIP. JPAS is the official DoD personnel security system of record
            which provides real-time information regarding security clearances, access, and
            investigative status on DoD employees and contractors for security managers.
            EPSQ and e-QIP are software systems intended to automate the security clearance
            process. EPSQ allows individuals to electronically complete and validate
            information for PSIs. The e-QIP system enables individuals to create, edit,

4
    The PSI forms include the Standard Form 85, 85P, or 86, depending on the required level of clearance.
5
    The PSI request includes the appropriate Standard Form, as well as all other necessary documentation,
     such as the Fingerprint Card and Declaration of Federal Employment.

                                                       6
           retrieve, update, and submit personnel investigative data as part of the PSI
           process. Individuals can initiate PSI requests via e-QIP through the JPAS system
           when authorized by their security manager. DoD intends to replace EPSQ with
           e-QIP to further automate the security clearance process, and, as of
           December 2005, had deployed e-QIP at select requesting activities in DoD. 6
           Currently, e-QIP provides an online version of the SF 86, “Questionnaire for
           National Security Positions,” and will soon provide other clearance forms.


Security Clearance Process Impediments at
  Requesting Activities
           Requesting activities experienced difficulties in processing PSI requests for
           military and civilian personnel. Specifically, the difficulties included:

                   •   inaccurate and incomplete personnel data,

                   •   increased workloads for security managers,

                   •   rejected PSI requests from OPM, and

                   •   limited number of knowledgeable staff.

           JPAS. JPAS allows security managers to verify clearance levels for personnel
           requiring access to sensitive and classified facilities and information. JPAS
           interfaces with at least 45 other DoD systems, including the Defense Eligibility
           Enrollment Reporting System and Defense Civilian Personnel Data System, to
           obtain military and civilian personnel information, respectively. JPAS data used
           by security managers to track personnel security clearances and periodic
           reinvestigations originate in JPAS via biweekly feeds from Defense Eligibility
           Enrollment Reporting System and Defense Civilian Personnel Data System.
           Based on access levels, JPAS allows users limited editing capabilities.

           Reliability of Personnel Data. Security managers at 16 of the 26 requesting
           activities we visited stated that JPAS contained incomplete or inaccurate data on
           military and civilian employees. For example, at the Naval Education and
           Training Command, the security managers stated that JPAS did not contain
           information on PSIs older than 15 years. Navy policy requires individuals with
           confidential access to submit reinvestigation requests every 15 years. Therefore,
           if the security manager needed to verify investigation information for an
           individual with confidential access, JPAS might not contain a record for that
           individual, and the security manager would have to initiate the entire PSI process.

           In addition, security personnel stated that JPAS contained data errors. Security
           personnel at Defense Logistics Agency Headquarters stated that JPAS
           reinvestigation reports often contained data inaccuracies, such as data for
           personnel separated from Government service and deceased personnel. Security

6
    The Office of Management and Budget has required DoD to implement e-QIP DoD-wide in April 2006.

                                                   7
personnel at European Command cited examples of multiple personnel with the
same social security number and multiple social security numbers for one person.
Additionally, security personnel at Camp Pendleton stated that information
contained in JPAS reinvestigation reports sometimes conflicted with the
information in the Defense Eligibility Enrollment Reporting System, which is one
of the military personnel systems. Specifically, security personnel cited examples
in which the Defense Eligibility Enrollment Reporting System continued to send
information on retired personnel to JPAS, resulting in the individuals appearing
on reinvestigation reports when they were no longer active DoD employees.
Because security managers are responsible for tracking individuals’ security
clearances and contacting individuals for periodic reinvestigations, inaccurate
reports can cause security mangers to spend unnecessary time researching and
locating personnel who are no longer active DoD employees.

        Correcting JPAS Data. Personnel from the JPAS Program Office stated
the program offices that own the original data were responsible for the accuracy
of the data because JPAS did not create the data, but downloaded data from other
systems. Therefore, neither personnel from the JPAS Program Office nor security
managers at requesting activities have direct access to correct inaccurate data.
JPAS provides functionality for security managers to submit data correction
requests to the appropriate program office; however, after submitting the request,
security managers must wait for the program office to correct the data and feed it
back into JPAS. Although JPAS provided functionality to correct data
inaccuracies within the systems, security managers could not correct data in a
timely manner, which forced security managers to work with inaccurate data.

        Compensating Efforts by Requesting Activities. To overcome the
inaccuracies in JPAS, security managers at 20 of the 26 requesting activities we
visited created and maintained tandem systems to accurately track personnel
security clearance information. The tandem systems ranged from simple
Microsoft Excel spreadsheets to more elaborate security systems that combined
several security functions, such as physical security and badge identification
systems. Security managers highlighted three general reasons for maintaining
tandem systems, including:

       •   inaccuracy of JPAS reinvestigation reports,

       •   inability to directly correct data inaccuracies, and

       •   lack of timely updates to personnel information.
At all 20 requesting activities, security managers entered duplicate information
into JPAS and tandem systems, which increased the amount of work necessary to
accurately track reinvestigations and security clearance levels.

Increased Workloads. Changes in guidelines for classifying information
increased the amount of information that may be classified and the number of
personnel needing security clearances. Executive Order 13292, dated
March 25, 2003, provides guidelines for classifying information to defend against
transnational terrorism, and increased the amount of information to be considered
for classification over the previous Executive Order 12958, dated April 17, 1995.

                                     8
Executive Order 13292 added functions related to the global war on terrorism,
including logistics support, facilities, and infrastructures, in addition to those
functions listed in Executive Order 12958, to be considered for classification.
Additionally, GAO testimony in June 2005 stated that the increase in the
operations and deployment of military personnel since September 11, 2001, and
the sensitive technology that military personnel, Government civilians, and
contractors use have impacted the personnel security clearance process. These
situations have increased the number of personnel requiring access to classified
information and the need for timely submission of PSI requests.

Security managers at requesting activities we visited repeated concerns of
increased workloads. Specifically, the security manager at Defense Logistics
Agency Enterprise Support Europe (DES-DE) stated that the number of personnel
security clearances they process for one tenant increased from 5 in 2001 to 75 in
2003. Additionally, security personnel at the European Command explained that
in the past, classified information was largely maintained at the senior officer
level. However, in today’s highly technologically oriented environment, more
military personnel need access to classified information to drive a tank or
program a weapon system to fire.

Rejected PSI Requests. All 26 requesting activities we visited experienced
rejected PSI requests from OPM, which impacted the timeliness for processing
security PSI requests. According to GAO testimony, in February 2005, OPM
stated that about 11 percent of clearance investigation requests submitted outside
the e-QIP system were returned to the requesting activity when missing or
discrepant information could not be obtained by telephone. USD(I) personnel
estimated that, as of April 2005, OPM rejected between 20 and 25 percent of DoD
PSI requests. Although security managers at requesting activities implemented
quality assurance procedures for reviewing and processing PSIs, OPM still
rejected PSI requests due to incomplete or inaccurate data. Security managers
stated that OPM established a process for correcting data inaccuracies prior to
rejecting PSI requests; however, security managers provided several reasons why
they could not fully comply with the process.

        Quality Assurance Procedures at Requesting Activities. Security
managers at requesting activities we visited seemed conscientious in reviewing
the PSI requests for missing or inaccurate information before submitting to OPM.
For example, security personnel at Ramstein Air Base in Germany reviewed PSI
requests for completeness and accuracy twice before submitting to OPM: once at
the unit security office and again at the base security office. Security personnel at
Fort Stewart, when possible, met with individuals submitting PSI requests to
review for accuracy and completeness of the PSI forms prior to submitting them
to OPM. Additionally, security managers at the Space and Naval Warfare
Command developed checklists to ensure that PSI requests contained all the
appropriate documentation. However, security managers continued to receive
rejected PSI requests due to inaccurate data such as outdated references, outdated
phone numbers, outdated signatures, or inaccurate zip codes that may not be
identified in a review for completeness. Security personnel at two security offices
identified instances where OPM rejected the same PSI request three or four times
due to inaccurate data. According to security managers, it appeared that OPM did
not review the entire document and return it with all errors identified; rather,

                                      9
OPM returned the document when they identified one error. This process
resulted in multiple rejections of PSI requests. These rejections contributed to
delays in processing the PSI requests.

        OPM Process for Addressing Errors. According to security managers
at requesting activities we visited, OPM established procedures for its
caseworkers to resolve any discrepancies on a PSI request. Generally, requesting
activities had 3 days to respond to OPM with corrected information to avoid
having OPM reject the PSI request. OPM rejected and returned the PSI request
via mail if the caseworker could not contact the security manager or if the security
manager could not respond with corrected data within 3 days.

        Requesting Activities’ Compliance With the OPM Process. Despite
their efforts to resolve data discrepancies within 3 days, security managers cited
several reasons for not fully complying with the OPM process. Security
managers explained that the individuals to whom they provide personnel security
services are not necessarily under their direct control, and the security managers
may not be able to contact them within 3 days. For example, security managers at
DES-DE provide security services to individuals in 85 countries throughout
Europe. Therefore, if OPM contacted DES-DE to correct data inaccuracies, the
DES-DE security manager may not necessarily have access to the individual to
correct the information, or may not be able to contact the individual within the
3-day limit. Additionally, security personnel at Fort Huachuca stated that soldiers
may be out on extended training exercises, and may not return within 3 days of
OPM’s initial contact. The security managers could not fully comply with the
3-day turnaround, and therefore received rejected PSI requests via mail.

Furthermore, security managers at requesting activities in Germany stated that
they often did not receive phone calls or telephone messages from OPM. Security
personnel at DES-DE attributed this condition to the time difference between the
United States and Germany. In addition, one requesting activity we visited in
Germany did not have voice mail or answering machines at its office.
Specifically, security personnel at Ramstein Air Base stated that, in one instance,
OPM mailed a rejected PSI request to the security office, noting that the
caseworker left a telephone message regarding information on the PSI request,
despite the security personnel not having voice mail or an answering machine.
The security manager was not aware that the PSI request had been rejected until
the request arrived in the mail. The 3-week timeframe for the requesting
activities in Germany to receive the rejected PSI requests via mail significantly
delays the process.

        Improved Systems for Submitting PSI Requests. To reduce the number
of rejected PSI requests from OPM, DoD began to use e-QIP, an OPM system
that automates the process for completing, submitting, and scheduling PSIs. The
e-QIP system is expected to improve the process for submitting PSI requests.
DoD tested e-QIP at selected requesting activities. Out of 26 requesting activities
we visited, only 2 used e-QIP to submit PSI requests. Security managers at Fort
Huachuca and Ramstein Air Base stated that it took significantly less time for
OPM to receive, schedule, and open an investigation when using e-QIP.
Therefore, fully implementing e-QIP throughout DoD could increase the
efficiency of processing PSI requests at the requesting activity level.

                                    10
            Best Practices. Security personnel at three requesting activities in
    Germany established procedures to efficiently work with OPM to resolve data
    inaccuracies. Specifically, security personnel at U.S Army Europe and the
    6th Area Support Group, Germany, improved their ability to comply with the
    OPM timeline by attaching a memorandum to the front of each PSI request to
    have OPM caseworkers contact them via e-mail rather than by phone. The
    security personnel at Ramstein Air Base also verified that the process improved
    when they requested that OPM contact them via e-mail. The security manager at
    the 6th Area Support Group, Germany, established a good working relationship
    with the Branch Manager at OPM to resolve issues. Additionally, the security
    manager stated that all PSI requests submitted are screened by the Branch
    Manager’s team, which helped in processing PSI requests and reduced the amount
    of rejected PSI requests.

    Knowledgeable Staff. Despite making best efforts to perform their jobs, security
    managers responsible for timely and effectively processing PSIs, in some cases,
    lacked the experience, management support, or training to perform their duties
    most effectively. At the 26 requesting activities we visited, security personnel
    ranged from full-time experienced security managers with staffs, to military
    and/or civilian personnel completing security duties as collateral duties. For
    example, although the base security manager at Davis-Monthan Air Force Base
    was a full-time civilian whose primary duty was security, which includes
    personnel security, unit security managers were military personnel performing
    security responsibilities as collateral duties, often without prior personnel security
    experience.


Improvement Opportunities for Security Clearance Program
    DoD requesting activities experienced difficulties in processing PSI requests for
    military and civilian personnel because USD(I) did not:

           •   establish minimum training requirements for security managers, or
           •   perform adequate management or oversight as required in DoD
               Regulation 5200.2-R.

    In addition, USD(I), the Services, the Defense Information Systems Agency, and
    the Defense Logistics Agency did not consistently update policy to include
    complete information on eight key elements.

    Adequacy of Training Requirements. DoD Regulation 5200.2-R does not
    include training requirements for security personnel to ensure a minimum level of
    training among all security personnel. Specifically, DoD Regulation 5200.2-R
    does not require security personnel to complete training on the personnel security
    clearance process. However, DoD has vehicles in place to offer personnel
    security clearance training. For example, the DSS Academy developed
    concentrations within the Security Disciplines, such as Counterintelligence,
    General Security, Information Security, and Personnel Security, and offers
    courses for security personnel aligned with each concentration. The Program

                                         11
Management Concentration within the Personnel Security Discipline includes the
following courses: Personnel Security Clearances, Personnel Security
Management, and PSI Interface. In addition to training offered at DSS Academy,
the Navy Security Training, Assistance, and Assessment Team (Pacific
Command) and OPM provide training opportunities on the security clearance
process and e-QIP, respectively.

Despite making best efforts to perform their jobs, some security personnel lacked
the necessary training or experience, which may cause delays in the security
clearance process. In addition, high personnel turnover at requesting activities
contributed to inefficiencies in processing PSI requests.

        Use of Security Training. Although DoD and OPM offer training for
security personnel, security personnel did not consistently use the training
throughout DoD for various reasons. Security managers at 11 requesting
activities stated that they did not attend personnel security clearance training
courses offered by the DSS Academy or other educational entities due to limited
staffing within security offices, lack of training funds, or lack of training
requirements. Therefore, security managers learned the security clearance
process via on-the-job training or through briefing charts available at the
requesting activity that outlined procedures for using security clearance systems,
such as JPAS and e-QIP.

Although security managers may not have attended DoD or OPM training,
security managers at five requesting activities developed standard operating
procedures to aid security managers in processing PSI requests. These standard
operating procedures outline specific procedures for processing PSI requests. For
example, the Naval Education and Training Command developed and
documented standard operating procedures that include process flowcharts and
outline the step-by-step process for military and civilians personnel applying for
clearances. Additionally, the Defense Information Systems Agency security
office developed and documented standard operating procedures that clearly
outline the personnel security clearance process and delegate responsibilities for
processing PSI requests. Although these standard operating procedures are a
viable tool for security managers without prior experience or training, they do not
replace the need for personnel security training to ensure security managers
receive the most updated information.

        Personnel Turnover and Training Needs. Requesting activities we
visited experienced high turnover for security managers, particularly when
personnel security duties were performed by military personnel. For example, at
Davis-Monthan Air Force Base the security manager stated that the turnover for
unit security managers was very high due to changes in personnel duty stations.
He stated that personnel turnover delayed the security clearance process because
new unit security managers without prior experience or training must overcome a
considerable learning curve to understand the security clearance process and the
systems used to submit and track PSIs. Additionally, turnover of unit security
managers at Fort Huachuca due to changes in duty stations contributed to delays
in the security clearance process because new unit security managers often had no
prior training or experience.


                                    12
Turnover of personnel in security positions, in combination with recent changes
to the security clearance program, including transition of investigative
responsibilities from DSS to OPM and implementation of e-QIP and JPAS for
processing PSI requests, increased the need for security managers to attend
training. To effectively complete their security duties, security managers should
be up-to-date on the personnel security clearance process and methods used to
process PSI requests. DoD should establish minimum training requirements for
security managers to obtain a broad knowledge base of the entire security
clearance process, including the systems used to submit PSI requests and track
clearance information. Required training will also help ensure a consistent level
of knowledge among security managers, decrease delays in the security clearance
process due to inexperienced personnel, and provide opportunities for
disseminating updated information on the security clearance process.

Management and Oversight of the DoD Personnel Security Clearance
Program. According to DoD Regulation 5200.2-R, USD(I) is to provide staff
assistance to Services and Defense agencies on day-to-day security policy and
operating problems and conduct inspections of DoD Components for compliance
with DoD security policy and procedures. However, USD(I) stated that it was not
able to provide the appropriate management and oversight of DoD Components
due to limited staffing. Insufficient staffing limited the ability of USD(I) to
monitor and communicate with requesting activities to provide updates as well as
stay informed of concerns.

         Limited Staffing at USD(I). The responsibility for the personnel security
clearance program transitioned in May 2003 from the Assistant Secretary of
Defense for Command, Control, Communication, and Intelligence to USD(I).
One person within the USD(I) Counterintelligence and Security Office was
responsible for the DoD-wide personnel security clearance program for military,
civilians, and contractors. As of September 2005, the Counterintelligence and
Security Office expanded to include two contractor employees. According to
DoD Regulation 5200.2-R, USD(I) is responsible for writing policy and guidance
for the personnel security clearance program, and providing staff assistance for
Services and Defense agencies to resolve policy and operating problems. USD(I)
is also responsible for conducting inspections of Services and Defense agencies
for compliance with DoD security policy and procedures. However, due to the
limited staff, USD(I) had difficulty accomplishing this mission, specifically with
updating policy in a timely fashion and providing oversight of the DoD-wide
personnel security clearance program.

        DSS Clearance Liaison Office. DSS, an agency of USD(I), established
the DSS Clearance Liaison Office to support USD(I) with oversight, planning,
developing, and communicating DoD policies regarding the personnel security
clearance program, including coordinating and sponsoring OPM investigators
conducting overseas interviews. The DSS Clearance Liaison Office, established
in June 2005, is staffed with seven people functionally aligned with the Services,
Defense agencies, and industry. However, security personnel at requesting
activities we visited had limited, if any, knowledge of the establishment or
responsibilities of the DSS Clearance Liaison Office. For example, the security
manager at the Chief of Naval Operations stated that, although DSS announced
the establishment of the office, they did not provide points of contact or other

                                    13
information for requesting activities to aid in the security clearance process.
Security managers at three other requesting activities had limited knowledge of
the establishment of the DSS Clearance Liaison Office, its mission, or points of
contact.

Furthermore, the DSS Clearance Liaison Office did not adequately coordinate
with security managers at requesting activities for the personnel security
clearance process, specifically for overseas investigations. Security managers at
requesting activities in Germany stated that OPM inexplicably ceased conducting
overseas interviews from March 2005 through September 2005. As part of the
transfer of the PSI function from DSS to OPM, DSS investigators became OPM
employees. Consequently, OPM personnel explained that overseas interviews
halted in March 2005 because OPM investigators did not have the authority to
travel on DoD travel authorizations. DoD and OPM, therefore, established
agreed-upon procedures, dated July 15, 2005, for OPM to complete overseas
interviews for PSIs under DoD sponsorship. These procedures required OPM to
provide at least 45 days notice before traveling overseas, and the OPM
investigators arrived in Germany within approximately 60 days from the date of
the agreement. However, security managers at requesting activities in Germany
continued to experience what they considered to be inexplicable delays in
obtaining security clearances.

Additionally, security managers at U.S. Army Europe and Ramstein Air Base
stated that they did not receive adequate notice when OPM investigators
conducted overseas interviews in September 2005. The security managers stated
that they received notice only 1 day prior to the arrival of OPM investigators. As
a result, security managers had to put forth a major effort to quickly locate and
schedule PSI subject interviews for OPM investigators. Security managers stated
that, had they received more advanced notice, they could have helped facilitate
OPM investigations more efficiently by prioritizing and coordinating the
necessary personnel for PSI interviews.

        Other Management and Oversight Capabilities. Although USD(I) was
not able to complete adequate management and oversight of the personnel
security clearance program, DoD had mechanisms in place that could improve the
oversight and management. Specifically, USD(I) held quarterly meetings of the
Security Directors Group to discuss security issues and keep the DoD security
community informed of current and future security policy initiatives.
Additionally, Service and Defense agency policies require them to conduct
regular inspections of requesting activities to measure compliance with security
policies. These meetings and inspections could potentially help USD(I)
accomplish their responsibility of management and oversight.

DoD Policy for the Personnel Security Clearance Program. DoD policies for
the personnel security clearance program were outdated and contained incomplete
information on the security clearance process. According to DoD Regulation
5200.2-R, USD(I) is responsible for writing policy and guidance for the personnel
security clearance program. USD(I) originally anticipated issuing updated policy
in October 2005; however, USD(I) had limited staffing and, as of January 2006,
USD(I) had not issued updated policy.


                                    14
The Services and Defense agencies we visited also have policies for the security
clearance program; however, these policies were outdated and contained
incomplete information on the security clearance process. Furthermore, Army,
Navy, and Defense Information Systems Agency have not updated policies to
include the transfer of investigative responsibilities from DSS to OPM, or security
clearance systems used in the security clearance process. For example, although
the Army published additional policy memorandums updating information on the
security clearance process, the Army has not updated Army Regulation 380-67.
The regulation, dated 1988, states that security managers should submit PSI
requests to DSS via mail. However, current processes require security managers
to submit PSI requests to OPM via mail. Army G-2 officials stated that the Army
has not updated Army Regulation 380-67 because they want to update it based on
the updated DoD Regulation 5200.2-R. Although the Air Force and Defense
Logistics Agency updated their security clearance policies in 2005, the policies
did not include complete information on the PSI submission processes, and the
Defense Logistics Agency policy did not include information on types of PSIs or
investigative scopes. Furthermore, the Defense Information Systems Agency
policy did not provide a clear correlation between the levels of security clearance,
the type of PSI necessary for each level of clearance, and the corresponding PSI
forms required.

Based on site visits and discussions with security personnel at USD(I), the
Services, the Defense agencies, and requesting activities, the eight key elements
listed in the following table should be included in policy for requesting activities
to effectively and efficiently process PSI requests. We evaluated DoD, Service,
and Defense agency security policies for updated information regarding these key
elements of the personnel security clearance process. The following table
outlines whether the policies include information that does not need to be
updated, include outdated or incomplete information, or did not include
information on the key elements of the personnel security clearance process.

                    DoD, Service, and Defense Agency Personnel Security Policies
                                and Analysis of Key Policy Elements
                                                      Component and Year of Policy Publication
                                            DoD           Army         Navy     Air Force   DISA    DLA
      Key Policy Elements                   1987          1988         1999       2005      2002    2005
 Program Management                         Yellow        Yellow       Green     Green      Green   Green
 Investigative Responsibilities             Yellow        Yellow       Yellow    Green       Red    Green
 Security Clearance Systems                 Yellow        Yellow       Yellow    Green       Red    Green
 PSI Submission Processes                   Yellow        Yellow       Yellow    Green       Red    Green
 Types of PSIs                              Yellow        Yellow       Yellow    Yellow      Red    Yellow
 Investigative Scopes                       Yellow        Yellow       Yellow    Yellow      Red    Yellow
 Requirement for
                                            Green         Green        Green     Green      Red     Green
     Compliance Inspections
 Training Requirements                       Red           Red          Red       Red       Red      Red
Green = Policy includes information that does not need to be updated
Yellow = Policy includes outdated or incomplete information
Red = Policy does not include information


                                                     15
     More specifically, the key elements identified in the table above should include,
     for example, up to date information to identify:

            •   program management responsibilities for day-to-day management of
                the security clearance program;

            •   agencies responsible for conducting PSIs and investigative
                responsibilities;

            •   security clearance systems, which include the information technology
                systems such as JPAS, for tracking security clearance information;

            •   PSI submission processes;

            •   the relationship among the levels of security clearances, types of PSIs
                required for different levels of clearance, and scopes of investigations
                to include documentation required for each PSI;

            •   requirements for compliance inspections, specifically compliance with
                personnel security policy; and

            •   training requirements for security personnel.


Security Clearance Delays and Potential Mission Impacts
     As a result of difficulties submitting PSI requests, requesting activities may
     continue to experience delays in the security clearance process, thus increasing
     the timelines for obtaining a completed security clearance. Other potential effects
     of delays in the security clearance process include impacts to national security
     and the ability of DoD to complete critical missions and fully support the
     warfighter.
     Specifically, delays in the security clearance process can result in negative
     consequences, such as nonproductive time while awaiting clearances. For
     example, delays have caused students at military training facilities to remain in a
     holdover status while waiting for a final clearance to complete training courses,
     graduate, or deploy. In addition, students without a final clearance may have their
     duty stations changed, which impacts their ability to fully support DoD missions
     for which they were trained.

     Furthermore, a weak personnel security clearance process can impact our national
     security. Delays in the security clearance process can result in the loss of highly
     qualified candidates, and delays in the renewal of clearances for persons who
     already have access to classified information can lead to a heightened risk of
     disclosure of classified information. Delays in reinvestigations may lead to a
     heightened risk of national security breaches via unauthorized disclosure of
     classified information, which has the potential to cause exceptionally grave
     damage to national security.


                                         16
Critical DoD Missions. Delays in the security clearance process may impact the
ability of DoD to complete critical missions. Security managers at requesting
activities in Germany cited examples where individuals without the appropriate
level of security clearance arrived to complete classified work. However, until
the security managers submitted the PSI requests and the individuals received the
appropriate level of clearance, the individuals could not complete the work they
were assigned.

Warfighter Support. Delays in the security clearance process may negatively
impact overseas requesting activities’ ability to support the warfighter.
Information related to the global war on terrorism is often classified, requiring a
large number of military and civilian personnel accessing the information to have
clearances, especially in foreign countries. DoD cannot fully support the
warfighter if it cannot send overseas individuals who have access to classified
information.

This audit highlights continued shortcomings in overall program management,
training requirements, and policy updates. Unless improved, these issues will
continue to preclude DoD from increasing the efficiency and effectiveness, and
from reducing delays in the personnel security clearance process. In
August 2005, GAO responded to questions from Congress on the progress DoD
has made to “develop and implement an integrated, comprehensive management
plan to eliminate the backlog, reduce the delays in conducting investigations and
determining eligibility for security clearances and overcome the impediments that
could allow such problems to recur.” GAO stated that it is unaware of any
progress DoD had made and that DoD had not demonstrated development of an
integrated approach for permanently eliminating the backlog and reducing delays.
Therefore, by updating and publishing policy, establishing training requirements,
and developing a plan for improving management and oversight, DoD will make
steps toward improving the personnel security clearance process. USD(I) is
taking steps to update DoD Regulation 5200.2-R; however, to improve the
personnel security clearance process at Service and Defense agency levels, those
organizations should coordinate with USD(I) and update their policies in the
interim to more accurately reflect the changes to the process. Furthermore, these
improvements should assist greatly in removing the DoD Security Clearance
Program from the list of GAO high-risk areas.




                                    17
Management Comments on Background
    Under Secretary of Defense for Intelligence Comments on Adequacy of
    Management Controls and Self-Evaluation. The Acting Director of Security,
    Under Secretary of Defense for Intelligence commented on the management
    controls, stating that the organization has been working to improve the personnel
    security clearance process to support the 2.5 million military, civilian, and
    contractor personnel within DoD. The Acting Director stated that DoD has
    encountered lengthy times for investigations and adjudications due to funding and
    personnel shortfalls, but stated that it has made process improvements, such as
    transferring the investigative function to the Office of Personnel Management to
    maximize resources and centralize administration and oversight of personnel
    security investigations. The Acting Director also noted that other improvements
    were underway and that efforts were in place to accurately project workloads,
    submit all SF 86 forms electronically, and limit returned personnel security
    investigation requests.

Management Comments on Finding
    Department of the Air Force Comments. The Director of Security Forces,
    Information Security commented on the finding, stating that Air Force
    Instruction 31-501 contained complete information on the personnel security
    clearance process, including program management responsibilities and personnel
    security investigation submission processes.

    Audit Response. Air Force Instruction 31-501 lacked complete information on
    the types and scopes of personnel security investigations and did not include
    training requirements.


Recommendations, Management Comments, and Audit
 Response
    1.     We recommend that the Under Secretary of Defense for Intelligence:

           a. Update the DoD Regulation 5200.2-R, to:

                   (1) Include responsibilities of Under Secretary of Defense for
    Intelligence, the Defense Security Service Clearance Liaison Office, and the
    Office of Personnel Management in the areas of program management,
    oversight, and investigations;

                  (2) Define systems used for submitting and tracking security
    clearance information, such as the Joint Personnel Adjudication System and
    the Electronic Questionnaire for Investigations Processing;



                                       18
             (3) Define types of personnel security investigations,
corresponding security clearance levels, and the required documentation;
and

              (4) Establish minimum training requirements for security
personnel including, but not limited to, training on the security clearance
process, the Joint Personnel Adjudication System, and the Electronic
Questionnaire for Investigations Processing.

      b. Establish milestones for publishing updated DoD
Regulation 5200.2-R.

Under Secretary of Defense for Intelligence Comments. The Acting Director
of Security, Under Secretary of Defense for Intelligence concurred, and stated
that they plan to have a draft of the DoD Regulation 5200.2-R ready for staffing
and coordination in July 2006, and expects to publish the updated regulation in
summer 2007.

Defense Logistics Agency Comments. Although not required to comment, the
Defense Logistics Agency concurred with the recommendation.

2.     We recommend that the Under Secretary of Defense for Intelligence,
in coordination with Services and Defense agencies, establish a vehicle to:

       a. Improve communication of changes to the security clearance
process between the Under Secretary of Defense for Intelligence and
requesting activities;

       b. Provide requesting activities a means to voice issues and for DoD
and the Office of Personnel Management (as necessary) to expedite
resolution; and

       c. Identify processes and resources needed to improve oversight of
the security clearance process at requesting activities, to include staff
assistance.

Under Secretary of Defense for Intelligence Comments. The Acting Director
of Security, Under Secretary of Defense for Intelligence concurred, stating that
the organization is currently exploring options to best communicate with DoD
Components on changes to the security clearance process and future plans, and to
solicit input from field activities.

Defense Logistics Agency Comments. Although not required to comment, the
Defense Logistics Agency concurred.




                                   19
3.      We recommend that the Army Deputy Chief of Staff for Intelligence;
the Director, Naval Criminal Investigative Service; the Air Force Director of
Security Forces, Information Security; the Director, Defense Information
Systems Agency; and the Director, Defense Logistics Agency update policies
for the DoD personnel security clearance program to include the following
areas:

       a. program management responsibilities;

      b. agencies responsible for conducting PSIs and investigative
responsibilities;

      c. security clearance systems for tracking security clearance
information;

       d. PSI submission processes;

       e. the relationship among the levels of security clearances, types of
PSIs required for different levels of clearance, and scopes of investigations to
include documentation required for each PSI; and

       f. training requirements for security personnel.

Department of the Army Comments. The Director, Counterintelligence,
Human Intelligence, Disclosure, and Security Directorate for the Department of
the Army, Office of the Deputy Chief of Staff, G-2 nonconcurred with
Recommendations 3.a. through 3.e., and partially concurred with
Recommendation 3.f. The Director stated that each of the critical elements listed
in Recommendations 3.a. through 3.e. are provided in Army policy through
memorandums and telephonic and e-mail communication to the Major
Commands. Additionally, the Director indicated that they are coordinating with
the Under Secretary of Defense and the Defense Security Service to develop a
certification program for security professionals.

Audit Response. The Army comments are partially responsive. While the Army
has met the intent of the recommendation by issuing memorandums to
supplement Army Regulation 380-67, the Army should update the 1998 Army
Regulation 380-67 to include current information on program management and
investigative responsibilities, security clearance systems, training requirements,
and submission processes, types, and scopes of personnel security investigations.
We commend the Army for coordinating with the Under Secretary of Defense for
Intelligence and the Defense Security Service to develop a certification program.
However, we believe that training requirements should be included in the Army
Regulation 380-67. We request the Army to reconsider its position on
Recommendation 3. and provide additional comments in response to the final
report.

Department of the Navy Comments. The Chief of Naval Operations, Special
Assistant for Naval Investigations and Security (NO9N) partially concurred,
stating that a Navy Personnel Security Program Policy Regulation is currently in
draft and due for signature in May 2006. However, the Chief of Naval Operations

                                    20
did not provide information contained in the draft regulation, and stated that
information regarding the responsibilities for conducting investigations, use of
security clearance systems, PSI submission processes, and training requirements
are located on the Chief of Naval Operations Web site.

Audit Response. The Navy comments are partially responsive. We commend
the Navy for drafting a regulation for the Navy Personnel Security Program and
agree that the Navy has issued and posted memorandums regarding
responsibilities for conducting investigations, use of security clearance systems,
and the PSI submission processes on the Chief of Naval Operations Web site.
While the Navy’s actions have met the intent of the recommendation, information
on the investigative responsibilities, security clearance systems, and PSI
submission processes should be included in the Navy Personnel Security Program
policy. Therefore, we request that management provide additional information on
the updated Navy policy, reconsider its position on Recommendation 3., and
provide additional comments in response to the final report.

Department of the Air Force Comments. Although the Director of Security
Forces, Information Security, commented on the finding, the Air Force did not
comment on the recommendation. We request that the Air Force provide
comments in response to the final report.

Defense Information Systems Agency Comments. The Director for Manpower,
Personnel and Security concurred, stating that the Defense Information Systems
Agency Instruction 240-110-8 is currently under revision and is estimated for
completion in May 2006. The Director stated that information on investigative
agencies, Personnel Security Investigation Submission process, and relationships
among the levels of security clearances and types of personnel security
investigations is outlined in the Defense Information Systems Agency Personnel
Security Standard Operating Procedures. Additionally, the Director stated that
the Defense Information Systems Agency developed a career management plan
for all security specialists that details the required training suggested for career
development and advancement.

Audit Response. The Defense Information Systems Agency comments are
partially responsive. We commend the Defense Information Systems Agency for
drafting an update to Defense Information Systems Agency Instruction 240-110-
8; however, the Personnel Security Standard Operating Procedures should be
included or referred to in the update to Defense Information Systems Agency
Instruction 240-110-8. The updated Instruction should include information on the
investigative agencies, the Personnel Security Investigation submission process,
the relationships among the levels for security clearances and types of personnel
security investigations and training requirements. Therefore, we request that the
Defense Information Systems Agency provide additional information on the
contents of the updated policy in response to the final report.

Defense Logistics Agency Comments. The Director, Defense Logistics Agency
Enterprise Support, nonconcurred, stating that the Defense Logistics Agency One
Book and Defense Logistics Agency Personnel Security Program Guidebook
contain information on program management responsibilities, agencies
responsible for conducting PSIs and investigative responsibilities, security

                                    21
clearance systems, the PSI submission process, levels of clearances, types of PSIs,
and scopes and documentation required for PSIs. Additionally, the Director
stated that the Defense Logistics Agency has not established written policy
regarding training requirements because the Under Secretary of Defense for
Intelligence has not issued training requirements. However, the Director noted
that the Defense Logistics Agency has instituted internal training programs to
train personnel security specialists on current issues, initiatives, security clearance
systems, and other matters relative to personnel security.

Audit Response. The DLA comments are partially responsive. We agree that
the DLA policy included complete and updated information on the program
management responsibilities, investigative responsibilities, the security clearance
systems, and the PSI submission process for the personnel security clearance
process. However, the policy and guidance did not include complete and updated
information on the types and scopes of PSIs and did not include information on
the type or investigative scope of the Access National Agency Check with
Inquiries or the Child Care National Agency Check and Inquiries. We commend
the Defense Logistics Agency for implementing internal training programs to
train personnel security specialists. While these actions meet the intent of the
recommendation, training requirements should be included in Defense Logistics
Agency policy. We request that management reconsider its position on
Recommendation 3 and provide additional comments in response to the final
report.




                                      22
Appendix A. Scope and Methodology
    We performed this audit from March 2005 through February 2006 in accordance
    with generally accepted government auditing standards. We evaluated the ability
    of DoD requesting activities to efficiently and effectively process security
    clearance requests. During site visits, we reviewed information regarding
    management of the security clearance program, roles and responsibilities of
    security manager, coordination among security and with human resources offices,
    information technology systems, training, and communication with investigative
    agencies. We interviewed officials from the USD(I), DoD Component
    headquarters, Defense agencies, and requesting activities from the Army, Navy,
    Air Force, and Marine Corps. We also reviewed documentation, including DoD,
    Service, Defense agency, and OPM policies, standard operating procedures, and
    documentation on JPAS. These documents ranged in dates from January 1987
    through November 2005.

    We visited officials at USD(I), Army G-2, Chief of Naval Operations, and the
    Director of Security Forces to gain information on the security clearance program
    at the Service level. We also visited DSS and the DSS Academy to gain
    information on JPAS and the training classes offered by DSS Academy. Finally,
    we met with an official from OPM to discuss investigative initiatives. Based on
    recommendations from DoD Component headquarters, we judgmentally selected
    26 requesting activities that represented each of the Services and three Defense
    agencies. We visited and reviewed the security clearance programs at the
    following locations:

       •   U.S. European Command, Germany

       •   Army Materiel Command, Virginia

       •   U.S. Army Europe, Germany

       •   Fort Huachuca, Arizona

       •   Fort Stewart, Georgia

       •   6th Area Support Group, Germany

       •   Human Resources Service Center Southwest, California

       •   Center for Information Dominance Corry Station, Florida

       •   Fleet Industrial Supply Center, California

       •   Naval Academy, Maryland

       •   Naval Air Station North Island, California

       •   Naval Air Station Pensacola, Florida


                                       23
   •   Naval Criminal Investigative Service, Florida

   •   Naval Education and Training Command, Florida

   •   San Diego Broadway Complex, California

   •   Space and Naval Warfare Systems Command, California

   •   U.S. Air Force Europe, Germany

   •   Andrews Air Force Base, Maryland

   •   Davis-Monthan Air Force Base, Arizona

   •   Eglin Air Force Base, Florida

   •   Ramstein Air Base, Germany

   •   Camp Pendleton, California

   •   Defense Finance and Accounting Service, Virginia

   •   Defense Information Systems Agency, Virginia

   •   Defense Logistics Agency, Virginia

   •   Defense Logistics Agency Enterprise Support Europe, Germany

Use of Computer-Processed Data. We did not use computer-processed data to
perform this audit.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the DoD Personnel Security Clearance Program high-risk
area.




                                    24
Appendix B. Prior Coverage
    During the last 5 years, GAO and the DoD Inspector General (IG) have issued
    8 reports discussing DoD Personnel Security Clearance Program. Unrestricted
    GAO reports can be accessed over the Internet at http://www.gao.gov.
    Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports.


GAO
    GAO Report No. GAO-05-842T, “Some Progress Has Been Made but Hurdles
    Remain to Overcome the Challenges that Led to GAO’s High-Risk Designation,”
    June 28, 2005

    GAO Report No. GAO-05-207, “High Risk Series,” January 2005

    GAO Report No. GAO-04-632, “Additional Steps Can Be Taken to Reduce
    Backlogs and Delays in Determining Security Clearance Eligibility for Industry
    Personnel,” May 2004

    GAO Report No. GAO-04-344, “DoD Needs to Overcome Impediments to
    Eliminating Backlog and Determining Its Size,” February 2004

    GAO Report No. GAO-01-465, “More Consistency Needed in Determining
    Eligibility for Top Secret Clearances,” April 2001


DoD IG
    DoD IG Report No. D-2001-136, “Defense Clearance and Investigations Index
    Database,” June 7, 2001

    DoD IG Report No. D-2001-112, “Acquisition Management of the Joint
    Personnel Adjudication System,” May 5, 2001

    DoD IG Report No. D-2001-065, “DoD Adjudication of Contractor Security
    Clearances Granted by the Defense Security Service,” February 28, 2001




                                       25
Appendix C. Types and Scopes of Personnel Security
  Investigations, Security Clearance Levels, and Required
  Documentation
     The types of PSIs vary in scope of investigative effort required to meet the
     purpose of the particular investigation. DoD and OPM outline types of PSIs and
     corresponding security clearance levels, including but not limited to the
     following.

        •   National Agency Check. The National Agency Check (NAC) includes
            Federal Bureau of Investigation Name and Criminal History Fingerprint
            Checks, Defense Clearance Investigation Index search, and can include
            checks on military personnel records, citizenship, selective service,
            Central Intelligence Agency records, and State Department records.

        •   NAC and Inquiries. A NAC and Inquiries is the minimum investigation
            required for appointment to federal service. A NAC and Inquiries
            includes records checks associated with a NAC plus checks with law
            enforcement agencies, former employers and supervisors, residence,
            references, and schools covering the previous 3 to 5 years.

        •   Child Care NAC and Inquiries. A Child Care NAC and Inquiries is
            required for individuals holding positions within childcare facilities.

        •   NAC With Law and Credit. A NAC With Law and Credit is the
            minimal reinvestigation requirement for contractors or consultants for
            access to secret or confidential classified information. A NAC With Law
            and Credit includes all elements of NAC plus checks with law
            enforcements agencies for the last 5 years and credit checks for the last 7
            years.

        •   Access NAC With Inquiries. An Access NAC With Inquiries is the
            minimum investigation required for secret or confidential clearance and
            includes all elements of the NACI, plus law enforcement and credit checks
            for the previous 5 to 7 years.

        •   Single Scope Background Investigation. A Single Scope Background
            Investigation is the investigation for individuals requiring a top secret
            clearance or working in a critical sensitive position. A Single Scope
            Background Investigation normally covers a 5-year period and consists of
            a subject interview, NAC, credit checks, character references, and
            employment records checks and references.

        •   Reinvestigation. Certain categories of duties, clearance, and access
            require the conduct of a reinvestigation every 5 to 15 years for military,
            civilian, contractor, and foreign nationals with access to classified
            material.



                                         26
Required Documentation. Each level of security clearance requires different
forms for PSIs. OPM requires the following standard forms and optional forms:

   •   SF-85 – Questionnaire for Non-Sensitive Positions

   •   SF-85P – Questionnaire for Public Trust Positions

   •   SF-86 – Questionnaire for National Security Positions

   •   SF-87 – Fingerprint Card (Federal Document 258 for contractors)

   •   Optional Form 306 – Declaration of Federal Employment

DoD, Service, and Defense agency policies dictate which forms to submit when
requesting PSIs.




                                   27
Appendix D. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense for Intelligence

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Commands
Commander, U.S. European Command
Inspector General, U.S. Joint Forces Command




                                          28
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Subcommittee on Personnel, Committee on Armed Services
Senate Subcommittee on Strategic Forces, Committee on Armed Services
Senate Subcommittee on Readiness and Management Support, Committee on Armed
  Services
Senate Committee on Homeland Security and Governmental Affairs
Senate Committee on Intelligence
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Subcommittee on Total Force, Committee on Armed Services
House, Subcommittee on Readiness, Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Permanent Select Committee on Intelligence

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, National Security Agency
Director, Defense Security Service

Non-Defense Federal Organization
Office of Management and Budget
Office of Personnel Management




                                         29
Under Secretary of Defense for Intelligence
Comments


                           OFFICE OF T H E UNDER SECRETARY O F DEFENSE
                                            5000 DEFENSE PENTAGON
                                           WASHINGTON, DC 20301-5000

                                                                                       MAR 28 2006
   INTELLIGENCE




          M E M O R A N D U M F O R D E P U T Y I N S P E C T O R G E N E R A L FOR A U D I T I N G ,
                                        INSPECTOR GENERAL, DEPARTMENT O F DEFENSE

          SUBJECT:        Report on Department of Defense (DoD) Personnel Security Clearance Process at
                          Requesting Activities (Project No. D 2 0 0 5 - D 0 0 C B - 0 1 3 6 )



                 This office has reviewed the draft report and concurs with the overall findings and
          provides the following responses to the recommendations pertaining to the Under Secretary of
          Defense for Intelligence:

          Recommendation 1. W e recommend that the Under Secretary of Defense for Intelligence:

                  a.   Update the D o D Regulation 5200.2-R to:

                          (1) Include responsibilities of Under Secretary of Defense for Intelligence, the
                              Defense Security Service Clearance Liaison Office, and the Office of
                              Personnel Management in the areas of program management, oversight, and
                              investigations;

                          (2) Define systems used for submitting and tracking security clearance
                              information, such as the Joint Personnel Adjudication System and the
                              Electronic Questionnaire for Investigations Processing;

                          (3) Define types of personnel security investigations, corresponding security
                              clearance levels, and the required documentation; and

                          (4) Establish minimum training requirements for security personnel including, but
                              not limited to, training on the security clearance process, the Joint Personnel
                              Adjudication System, and the Electronic Questionnaire for Investigations
                              Processing.

                  b. Establish milestones for publishing updated D o D Regulation 5200-.2-R

         USD(I) response: Concur, Program management, to include compliance with personnel
         security policy and oversight responsibilities, are defined in the draft 2R and will be expanded to
         cover the Defense Security Service Clearance Liaison Office (CLO) and the Office of Personnel
         Management (OPM). Changes regarding procedures for submitting an investigation are also
         covered in the draft and will be reviewed to ensure the guidance is comprehensive and easily
         understood. Training requirements for security personnel will be added. With regard to
         publication of an updated personnel security regulation, the goal is to have a draft ready for




                                                         31
staffing and coordination by July 2006. Based on recent experiences with several security
issuances, the staffing and coordination process from beginning to end has taken well over a
year, therefore, publication of an updated 2R is anticipated for S u m m e r 2007,

R e c o m m e n d a t i o n 2. W e recommend that the U n d e r Secretary of Defense for Intelligence, in
coordination with Services and Defense agencies, establish a vehicle to:

          a. Improve communication of changes to the security clearance process between the
U n d e r Secretary of Defense for Intelligence and requesting activities;

       b. Provide requesting activities a means to voice I S S U E S and for D o D and the Office of
Personnel Management (as necessary) to expedite resolution; and

       c. Identify process and resources needed to improve oversight of the security clearance
process at requesting activities, to include staff assistance,

USD(I) R e s p o n s e : Concur. This office is exploring different ways on how best to communicate
changes in policy, keep D o D Components abreast of impending changes, future plans, and to
solicit input from the field to assist us in our oversight responsibilities.

M a n a g e m e n t Controls: A d e q u a c y of M a n a g e m e n t Controls and Self-Evaluation

D o D controls over the management of the DoD Personnel Security Clearance Programs were not
sufficient to ensure that the requesting activities could efficiently and effectively process D o D
personnel security clearance requests. T h e F Y 2005 "Annual Statement Required Under the
Federal M a n a g e r s Financial Integrity Act of 1982" states that USD(I) will accurately track the
number of investigations, cost, and other data for workload projections through improvements in
JPAS.

USD(I) R e s p o n s e : This office has been actively working t o improve the personnel security
clearance process for several years to support the 2.5 million cleared personnel (military,
civilian, and contractor) in the Department. T h e biggest problem has been lengthy completion
times for investigations and adjudications as a result of funding shortfalls and lack of personnel
resources.

Many process improvements have been accomplished. The most significant of these was the
transfer of the D o D investigative function to O P M in February 2005 to maximize resources and
centralize administration and oversight. Many other improvements are currently underway and
there are m a n y opportunities for future enhancements.

In January 2005, the Government Accountability Office (GAO) declared DoD's personnel
security clearance program a high risk area, in part because of long-standing delays in
completing requests for security clearances. In its report, G A O - 0 5 - 2 0 7 , "High Risk Series, An
Update," January 2005, G A O slated that in order to improve its security clearance program, D o D




                                                      2




                                                   32
needs to "(1) develop and use methods for forecasting clearance needs and monitoring backlogs;
(2) match adjudicative staffing workloads; (3) work with O P M to implement a comprehensive,
integrated management plan for eliminating the backlogs and delays; and (4) determine the
feasibility or implementing promising initiatives." Before G A O removes the security clearance
process from its high-risk list D o D must have a corrective action plan, demonstrate
implementation of corrective measures, and put in place the necessary safeguards to prevent a
recurrence.

The Intelligence Reform and Terrorism Prevention Act (Intel Reform Act) directed actions to
improve the security clearance process and established timelines for the process (investigations
and adjudications). By December 2006, 80% of all security clearance determinations are to be
completed in 120 days (90 days for the investigation phase and 30 days for the adjudicative
phase). By December 2009, 9 0 % are to be completed within 60 days (40 days for investigations
and 20 days for adjudications). O M B was tasked with fixing the process and in turn established
a Security Clearance Oversight Steering Committee, which includes representatives from D o D ,
DHS, DOE, D O J , D O T , D O S , the DNI, the NSC, O P M , and the National Archives and Records
Administration to do so. Performance goals for each component of the security clearance
process - request (pre-investigation), investigation, and adjudication have been established. The
goals for each component are as follows:

       For agencies requesting a security clearance, the goals are to;

       *   Project within 5 percent the number of investigations required;
       •   Submit 100 percent of SF 86 forms via e-QIP by April lst for large government
           agencies;
       »   Submit investigation requests within 14 days; and
       *   Limit insufficient investigation request packages to n o more than 5 percent.

       For agencies conducting investigation, the goals are to:
       *   Complete SO percent of initial investigations within 90 days
       •   Fulfill 90 percent of the National Agency Record Repositories file request within 30
           days; and
       *   Complete 90 percent of international coverage requests within 30 days.

       For agencies adjudicating security clearances, the goals are to:
       • Complete 80 percent of adjudications within 3 0 days; and
       • Report 100 percent of adjudication decisions to O P M within 30 days.

Efforts are underway to meet these goals, which will resolve the identified material weaknesses
and the adequacy of the self-evaluation.




                                                 3




                                              33
       We appreciate the opportunity to review and comment on the report. If you have any
questions, please contact Charleen Wright at 703-697-3039.




                                            Christina M. Bromwell
                                            Director of Security, Acting




                                               4




                                            34
Department of the Army Comments


                                    DEPARTMENT OF THE ARMY
                                OFFICE OF THE DEPUTY CHIEF OFSTAFF,G-2
                                           1000 Army Pentagon
                                       WASHINGTON, DC 20310-1000




     DAMI-CD                                                              16 March 2006


     MEMORANDUM FOR INSPECTOR GENERAL, DEPARTMENT OF DEFENSE, 400
     ARMY NAVY DRIVE, ARLINGTON, VA 22202-4704

     SUBJECT: Report on DoD Personnel Security Clearance Process at Requesting
     Activities (Project No. D2005-D000CB-0136)


     1. Thank you for the opportunity to respond to this draft report. Our specific comments
     are attached for your consideration.

     2. Questions regarding our comments should be directed to Ms. Teresa Nankivell, 703¬
     695-9605 or Ms. Julia Swan at 703-695-2629.




                                                   THOMAS A. GANDY
                                                   Director, Counterintelligence, Human
                                                     Intelligence, Disclosure and Security
                                                     Directorate

     End




                                               35
         Report on DoD Personnel Security Clearance Process at Requesting Activities
                            (Project No. D2005-D000CB-0136)
                                  dated 15 F e b r u a r y 2006

                                           Issues and Comments


Issue #3a: U p d a t e A r m y policy for p r o g r a m m a n a g e m e n t responsibilities.

        C O M M E N T : HQDA, G-2 currently provides program management and oversight
        through memoranda, telephonic and email communications to the field. We are unable to
        conduct Staff Assistant Visits (SAVs) at this time, due to current funding restrictions and
        limited personnel.



Issue#3b; Identify agencies responsible for conducting PSIs and Investigative
responsibilities.

        C O M M E N T : HQDA Memorandum dated 26 Jan 05, subject: Changes to procedures re:
        Submission of Personnel Security Investigations (PSIs); and the Use of the Joint
        Personnel Adjudication System (JPAS) and update to the 26 Jan 05 memo dated 17 Oct
        05 are in place that identified OPM as the investigative agency for DoD and provided
        guidance to support the investigative requirements. These memorandums were sent to the
        M A C O M s with widest dissemination requested.



Issue #3c: U p d a t e A r m y policy to address security clearance systems for t r a c k i n g security
clearance information.

        C O M M E N T : Effective 14 February 2005, Army embraced the Joint Clearance
        Adjudications System (JCAVS)/JPAS as the A r m y ' s system of record to determine
        clearance eligibility and Current command access levels to classified information. This
        policy was disseminated on 26 Jan 05 as noted in comment 3b. W e are aware that some
        Army elements are not fully utilizing JPAS; however HQ G-2 will continue to put out
        policy guidance to ensure full compliance..



Issue #3d: Update Army policy' to address Personnel Security Investigations                     (PSI)
submission processes.

        C O M M E N T : H Q D A Memorandum dated 26 Jan 05, subject: Changes to procedures re:
        Submission of Personnel Security Investigations (PSIs); and the Use of the Joint
        Personnel Adjudication System (JPAS) and update to the 26 Jan 05 memo dated 17 Oct
        05 are in place that identified OPM as the investigative agency for DoD and provided
        guidance to support the investigative requirements, These memorandums were sent to the




                                                        1




                                                     36
       MACOMs with widest dissemination requested. We intend to update AR 380-67 once
       USD (I) disseminates updated DoD Personnel Security Guidance.

Issue #3e: Update Army policy to identify the relationship among the levels of security
clearances, types of PSIs required for different levels of clearance, and scapes of
Investigations to Include documentation required for each PSI

      C O M M E N T : Army has provided updated policy to the field regarding the relationships
      among the levels of security clearances, types of PSIs required for different levels of
      clearance, and scopes of investigations to include documentation required for each PSI.
      This is all outlined in HQDA Memorandum dated 26 Jan and 17 Oct OS respectively.

Issue #3f: Update Army policy to identify training requirements for security personnel.

      C O M M E N T : Army is actively participating in coordination with USD(I) and Defense
      Security Service (DSS) to develop a Security Professional Education Development
      (SPED) certification program that will provide a consolidated cross-community program
      for creating a security workforce that possesses the skills needed to effectively address
      the changing security environment.




                                              2




                                            37
Departmen                                                            t               o                                   f                       th                                                                        e                                    Nav                                                                                                                                                                       y                                  Comment                                                                                                                                                                                                                                                                                                                 s




                                                                                                                                                                                                           DEPARTMEN                                                                                                                                                                                                                                  T                 O                                              F                      TH                                                     E                   NAV                                                                       Y




                                                                                                                                                                                                                                                                                                                                                                                      H E A D Q U A R T E R                                                                                                                                              S




                                                                                                                                                                                                                           NAVA                                                          L            C R I M I N A                                                                                                      L                INVESTIGATIV                                                                                                                                               E               SERVIC                                                                       E




                                                                                                                                                                                                                                                  7 1                                6               SICAR                                                                           D                S T R E E                                                                           T                6                      E                    SUITE                                                                       2000




                                                                                                                                                                                                       W A S H I N G T O                                                                                                                           N                        NAVY                                                                      YARD                                                     D                                     C           2 0 3 8 8 - 5 3 S                                                                                                                     O




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       Ser                              :           00/6UOO2                                                                                                 O




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               1           6               Ma                            r   0                   6




            MEMORANDU                                                                                  M                FOR                                                        GENERAL                                                                                                                                           COUNSE                                                                                                                                                            L              OF THE                                                                                                                NAV                                                        Y




            FROM                      :    Chie                              f   o          f       Nava                                          l       Operations                                                                                                                                   ,        Specia                                                                                      l           Assistan                                                                                                      t         fo                           r             Nava                                                      l   Investigation                                                                                                                                       s             an                                      d               Securit                                                                                  y




                                                  (N09N                                         )




            SUBJ                  :   DO                                 D           PERSONNE                                                                                                        L                         SECURIT                                                                                                                                  Y                         CLEARANC                                                                                                                                                               E                      PROCES                                                                                                 S               A                             T                   REQUESTIN                                                                                                                                                                 G




                                                  ACTIVITIE                                                                              S




            REF          :   (a                       )       DRAF                                                 T               DO                                      D                    I                      G                      DISCUSSIO                                                                                                                                                                 N                         O                              F                PROPOSE                                                                                                                          D                 REPORT                                                                                                      ,       PROJEC                                                                                                        T              NO                                                       .




                                                                         D2005-D000CB-013                                                                                                                                                                                            6                "Do                                                               D                         PERSONNE                                                                                                                                                   L                   SECURIT                                                                                                               Y               CLEARANC                                                                                                                                                            E              PROCES                                                                                                 S




                                                                         A           T      REQUESTIN                                                                                                                                         G                     ACTIVITIES                                                                                                                                                                                     "




            BACKGROUND                                                                                     :   Subjec                                                                   t           draf                                                         t           repor                                                             t           i                          s               base                                                         d             o                         n            a                     n          audi                                                    t       performe                                                                                       d                 b                          y        DoDI                                                                G                          fro                                    m                          Marc                                                  h




                                                                                                                             200                              5        throug                                                                                        h               Januar                                                                                      y                2006                                                                   .           DoDI                                                                    G                           evaluate                                                                                   d          th                            e                 abilit                                                    y             o                  f               Do                                     D                       requestin                                                                                       g




                                                                                                                             activitie                                                                         s               efficienc                                                                                                 y                 an                                                   d                    effectivenes                                                                                                                                s          i                    n             processin                                                                                              g            securit                                                                      y             clearanc                                                                                                             e




                                                                                                                             requests                                                                              .       Thi                                                           s           revie                                                                  w                         onl                                              y               addresse                                                                                              d               the                                        securit                                                                y            clearanc                                                                                            e         proces                                                                                      s            a                   t




                                                                                                                              requestin                                                                                        g              activitie                                                                                                s                 fo                                     r            Do                                              D                    civilia                                                                n                  an                                 d              militar                                                              y          personnel                                                                                                           ,           an                                  d                 di                             d               no                            t




                                                                                                                              includ                                               e                contractors                                                                                                                                        .               Informatio                                                                                                                                      n                  containe                                                                                            d          i               n               th                        e          repor                                                       t         wa                                        s               gaine                                                               d                throug                                                        h




                                                                                                                             revie                                     w                    o                              f            sit                                  e               visit                                             s               t                       o                    2                        6                requ                                                     es                         tin                    g                   activitie                                                                           s              representin                                                                                                                    g            eac                                            h            o                            f            th                           e




                                                                                                                              Sendees                                                                                  ,       an                                        d                   thre                                        e             Defens                                                                                                  e             Agencies                                                                                                            .       Securit                                                                              y            managemen                                                                                                                                  t        wa                                           s                closel                                                          y




                                                                                                                             reviewe                                                                       d                   i                  n                  additio                                                                               n                     t                    o                 custome                                                                                                   r           servic                                                                 e             interface                                                                                  s               an                              d                   informatio                                                                                                                     n




                                                                                                                             technolog                                                                                                  y                 systems                                                                                                  ,            trainin                                                                                  g               an                                   d                   communications                                                                                                                                                                  .           Informatio                                                                                                                       n               from                                                                Unde                                              r




                                                                                                                              Secretar                                                                             y               of                                    Defens                                                                                    e                 fo                                          r            Intelligenc                                                                                                            e                    (USD[I]                                                                                   )         an                                  d                Do                                 D                      Componen                                                                                                                                  t




                                                                                                                              Headquarter                                                                                                                                s           wa                                          s             als                                                o             reviewed                                                                                                                  .




                                                                                                                              Referenc                                                                                     e             (a                                      )            state                                                s                   "th                                                   e                Nav                                             y                 designate                                                                                                      d             th                          e              Director                                                                                  ,           Nava                                                        l            Crimina                                                                                                  l




                                                                                                                              Investigativ                                                                                                                      e                Servic                                                                                 e                 a                         s                th                        e              responsibl                                                                                                                 e           part                                            y         fo                          r           establishing                                                                                                                                ,        directing                                                                                               ,   an                       d




                                                                                                                              overseein                                                                                             g             th                                          e            Nav                                                 y                     personne                                                                                                              l        securit                                                                              y           clearanc                                                                                  e            program,                                                                                                  "               Nav                                                                y




                                                                                                                              Regulation                                                                                                              s          plac                                                        e           tha                                                  t                     responsibilit                                                                                                                                                                                                       y                    t                                                                o                    CN                                         O                  (N09N)                                                                                         ,        wh                                            o




                                                                                                                              serve                                        s           principall                                                                                                                        y           a                             s                 Director                                                                                                     ,        NCIS                                                                      .




            DISCUSSION                                                               :      DoDI                                                                               G                    recommendation                                                                                                                                                                                                                            s           fo                              r            NCIS                                                              .               Updat                                                                   e           policie                                                                         s           fo                          r           the                                      Do                                          D                          personne                                                                                l




                                                                                                                              i      n           th                    e           followin                                                                                                           g            areas                                                                          :




                                                                                                                              a              .   Progra                                                                                 m                       managemen                                                                                                                                                            t         responsibilities                                                                                                                                                                     ,       servic                                                         e           regulation                                                                                                             s               to                               includ                                                                           e




                                                                                                                              change                                                            s              i                    n                 personne                                                                                                              l         securit                                                                                        y                clearanc                                                                                               e        program                                                                                      ;




                                                                                                                              b              .   Agencie                                                                                                    s                responsibl                                                                                                                                 e                 fo                             r           conductin                                                                                                               g           PSI                                         s       an                                d             investigativ                                                                                                                               e




                                                                                                                              responsibilities                                                                                                                                                              ;




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                     1




                                                                                                                                                                                                                                                                                                                                                                                                                                                               3                     8
                  c           .         Securit                                                              y            clearanc                                                                                                      e              trackin                                                                                       g                    system                                                                                                             s       for                                   securit                                                                                        y           clearanc                                                                                                             e           information                                                                                                                                   ;




                  d               .      PS               I       submissio                                                                                                             n                processes                                                                                                                                   ;




                  e           .         Th            e           relationshi                                                                                                                        p                       amon                                                                  g                   th                                    e                level                                                                                s               o                  f        securit                                                                            y                 clearances                                                                                                                                         ,   type                                       s             o                       f            PSI                                                s




                  require                                          d          fu                                      r      differen                                                                                               t           level                                                                  s             o                           f            clearance                                                                                                                             ,         an                         d                 scope                                                                            s            o                               f       investigation                                                                                                                                            s           t                    o




                  includ                                      e        documentatio                                                                                                                                                                    n             require                                                                                                  d                fo                                             r            eac                                             h            PSI                                         ;        an                                             d




                      f   .           Trainin                                                                g            requirement                                                                                                                                             s           fo                                         r       securit                                                                                                           y                   personnel                                                                                                          ,




RECOMMENDATIONS                                   :           NC1S                                                                                   *               respons                                                                                                 e            t                    o                    DoDI                                                                                     G                             recommendations                                                                                                                                                                                                                       :




                                                                                   a                 .            A                          Nav                                                         y                    Personne                                                                                                                   l            Securit                                                                                                                y            Progra                                                                          m                             Polic                                                                        y           Regulatio                                                                                                      n             i                      s




                                                                                   currentl                                                                                      y               i                       n                  chop                                                           ,           du                                        e                t                 o                       SECNA                                                                                                      V                 fo                                   r               signatur                                                                                                        e            i               n               Ma                                  y              2006                                                                 ,




                                                                                   b                     .        NCI                                                        S                  memorandu                                                                                                                                                                 m                     o                                     f               1                            4             Novembe                                                                                                                r            0                  3            wa                                               s                addresse                                                                                      d             t                      o




                                                                                   command                                                                                                                   s                regardin                                                                                                           g                   th                                     e                conduc                                                                                            t       o                  f            PS                                               I        function                                                                                                          s           b                       y           DS                                   S              an                                 d




                                                                                       OPM                                                       .           Thi                                                     s             informatio                                                                                                                                     n                 i                            s                als                                            o         locate                                                                    d                o                          n              th                           e                   CN                                                    O                   (N09N2                                                                                         )




                                                                                       websit                                                                        e           a                   t                             www.navysecuritv                                                                                                                                                                                                                                                  .navv.mil                                                                                                  .




                                                                                       c                 .         Do                                        D                       mandate                                                                                                           d                    us                                       e                 o                            f            th                                        e            Join                                           t         Personne                                                                                                             l              Adjudicatio                                                                                                                                n             Syste                                                                                 m




                                                                                       (JPAS                                                                     )          fo                                   r            trackin                                                                                           g                securit                                                                                                       y                   clearances                                                                                                                       .       Th                                  e                Departmen                                                                                                                            t         o                       f            th                                e




                                                                                           Nav                                           y           (DoN                                                                                   )          adopte                                                                                    d                   JPA                                                                          S                    i                 n           Novembe                                                                                                                     r            2002                                                                    .




                                                                                       d                     .     Curren                                                                                        t            PS                                         I       submissio                                                                                                                                                    n                processe                                                                                                s             fo                                     r            th                      e               Do                                                    N                   ar                              c       locate                                                                     d           o                        n                th           e




                                                                                       CN                                        O              websit                                                                                             e            a                     t       ww                                                         w.navysecuritv.navv.                                                                                                                                                                                                                                                                                        mil                                                  .




                                                                                       e                 .         Th                                    e               relationshi                                                                                                                                        p                betwee                                                                                                            n                   level                                                     s       o                       f            securit                                                                                        y                    clearances                                                                                                            ,       type                                                               s       o                 f




                                                                                           PSI                                       s       required                                                                                                          fo                             r            differen                                                                                                                       t           level                                                              s         o                 f            clearanc                                                                                                           e                   an                                    d           scope                                                          s             o                       f




                                                                                       investigation                                                                                                                                                       s         t                o            includ                                                                                               e                   documentatio                                                                                                                                                                  n                 fo                              r        eac                                                          h            PSI                                             ;        an                     d             thei                                                          r




                                                                                       respectiv                                                                                                 e                   policie                                                                                       s                fo                                r               th                                     e                    personne                                                                                                    l         securit                                                                                      y                   clearanc                                                                                                   e        progra                                                                                m                   ar                    e




                                                                                       poste                                                    d                o                      n                th                                        e           CN                                                  O                         websit                                                                                                       e                a                     t             www.nav                                                                                                           y              sec                                   urity                                                            .nav                                        y         .mi                             l          ,           an                                     d           ar                    e




                                                                                       include                                                                              d               i                            n               th                          e           draf                                                        t       Nav                                                                         y                        Personne                                                                                                 l         Securit                                                                                                 y                   Progra                                                                                m              Polic                                                                   y




                                                                                       Regulation                                                                                                                              .




                                                                                           f     .               Trainin                                                                                             g                  requirement                                                                                                                                                             s                fo                                            r        securit                                                                    y                 personne                                                                                                                     l               ar                               e           poste                                                 d             o                              n           th                                e




                                                                                       CN                                         O                websit                                                                                              e         a                    t                        www                                                                     .       nav                                                         y                   securitv.navy.mi                                                                                                                                                                                  l           .




                                                                                                                                                                                                                                                                                                   RALP                                                                                    H                            J                             .        BLINCO                                                                                                            E




                                                                                                                                                                                                                                                                                                   B                        y                directio                                                                                                                      n




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                     2




                                                                                                                                                                                                                                                                                                                                3                    9
Departmen                                                                                                                                                   t                          o                                                                        f                              th                                                                                                         e                           Ai                                                                                                r                               Forc                                                                                                                                                                                                    e                                          Comment                                                                                                                                                                                                                                                                                                                                                s




                                                                                                                                                                                                                                                                                                                                                                                              DEPARTMEN                                                                                                                                                                                      T                             O                                  F                         TH                                                   E                       AI                                      R                          FORC                                                                                     E




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         WASHINGTO                                                                                                                                                      N                 D                      C               2033                                                                  0




            MEMORANDU                                                                                                                                                                                             M                           FU                                                                R                       DOD/OI                                                                                                                   G                        ATTN                                                                               :           M                                                            S                   MCBRID                                                                                                                                  E                                                                2)                                                                                                                                                                                                                                                           Fe                                        b                   0                     6




                                                                                                                                                                                                                                                                                                                                                              THRU                                                                           :       SAF/FMP                                                                                                                                              E                         ATTN                                                                                                 :       M                                                  R                      HIGGINBOTHA                                                                                                                                                                                                                    M




            FROM                                                                  :                  H                                                              Q                      USAF/A7S                                                                                                                                                                       I




                                                                                                                                            134                                                0               Ai                                       r           Forc                                                                             e              Pentago                                                                                                           n




                                                                                                                                            Washington                                                                                                                                                              ,        D                                     C                      20330-134                                                                                                                                     0




            SUBJECT                                                                                                                 :         A                                                        F                  Comment                                                                                                                                                  s          t                       o        Draf                                                               t       Do                                     D                  I                    G                                 Repor                                                                                         t       o                           n            Do                                                   D                   Personne                                                                                                           l         Securit                                                                                       y          Clearanc                                                                                                                         e




                                                                                                                                                                                 Progra                                                                                 m                           a                            t          Requestin                                                                                                                                 g                Activitie                                                                                                               s                     Projec                                                                                          t           No                                                ,           D2005-DOOOCB-013                                                                                                                                                                                                                                                  6




                                                                                                Referenc                                                                                                          e              draf                                                               t           repor                                                                                 t            comment                                                                                                              s        outline                                                                                                          d                 o                              n            Pag                                                     e               15                                         ,            Tabl                                                     e           title                                               d             "DoD,                                                                         Service,                                                                                                 and




            Defense                                                                   Agency                                                                                                   Personnel                                                                                                                                                 Security                                                                                                         Policies                                                                                               and                                                                                          Analysis                                                                                         of                                                      Key                                                   Policy                                                               Elements.                                                                                                                              "               Th                                                           e




            comment                                                                                                s        indicat                                                                                                   e           tha                                                       t           th                                    e               A                                   F           implementin                                                                                                                                                    g                     instruction                                                                                                                                                  .           AF                                                I            31-501                                                                                    .       Personnel                                                                                                        Security




            Program                                                                        Regulation                                                                                                                                               lack                                                                                                  s             certai                                                                   n               information                                                                                                                                                                :




                                                                                            -              Program                                                                                                                        Management                                                                                                                                                                                                         ,            Finding                                                                                                :           Polic                                                                                              y                  include                                                                                                 s           outdate                                                                                       d           o                         r         incomplet                                                                                                                       e               information                                                                                                                           .




            W                       e             nonconcur                                                                                                                            .           W                                                e               understan                                                                                                                                             d           th                                  e           inspector                                                                                                                    s                wer                                                               e                lookin                                                                                 g                 fo                                      r          "day-to-da                                                                                                                    y              proble                                                                                   m                      solving                                                                                            "




            guidance                                                                                          .         I                           n                    militar                                                                                    y                        structure                                                                                                                         s           Commander                                                                                                                                                          s                ar                                         e             responsibl                                                                                                                                      e              fo                                    r        implementin                                                                                                                                              g             th                          e                       personne                                                                                                      l




            securit                                                           y                     progra                                                                                         m                          withi                                                                             n                    thei                                                         r               organizations                                                                                                                                                      ,               If                                             day-to-da                                                                                                                           y                problem                                                                                                             s        aris                                               e            whic                                                               h         canno                                                                               t      b                                   e




            resolve                                                                    d                 a                      t       uni                                                t           level                                                                        ,         problem                                                                                                                     s           ar                              e              raise                                                       d             throug                                                                                                          h                    comman                                                                                                                 d                channel                                                                                          s           to                              ou                                     r            office                                                              .                Majo                                                                                r




            Commands                                                                                                                        ,           Fiel                                                          d               Operatin                                                                                                                                    g               Agencies                                                                                                                    ,    an                               d                Direc                                                                                          t               Reportin                                                                                                               g                Unit                                                             s          outlin                                                                e              uniqu                                                                       e           missio                                                                                           n




            requirement                                                                                                                                 s                i             n                   thei                                                     r               supplement                                                                                                                                                       s            t                       o                th                       e            AF                                              I                31-501                                                                                                         .




                                                                                            -            PS                                                         I        Submissio                                                                                                                                                           n                 Processes                                                                                                                                     .       Finding                                                                                                    :                 Polic                                                                              y               include                                                                                                            s        outdate                                                                               d             o                           r         incomplet                                                                                                                       e




            information                                                                                                                         .           W                                                 e                nonconcur                                                                                                                                                      .               W                                  e       understan                                                                                                                           d                     th                                         e                inspector                                                                                                                           s            wer                                                      e            lookin                                                                         g            fo                                 r          guidanc                                                                                              e             o                              n




            implementin                                                                                                                                         g                e-qip                                                                          .           Includin                                                                                                                                  g            guidanc                                                                                                  e        o                    n                      e-qi                                                                 p                 i                      s             prematur                                                                                                                  e                    a                    t    thi                                s       time                                                            ,            OM                                                    B                ha                                          s         se                                 t           1                         Ap                         r




            0         6                 a               s           implementatio                                                                                                                                                                                       n                    date                                                                   .             However                                                                                                                            ,   we                                   hav                                                              e                     no                                         t         receive                                                                                             d                 implementatio                                                                                                                                                                        n              guidanc                                                                                                 e            fro                                          m                           DoD                                          ,




            W                       e             wil                                  l            updat                                                                          e               ou                                         r             AF                                                      I            accordingl                                                                                                                                       y                   whe                                                 n             Do                                                          D                         issue                                                                          s           polic                                                                     y               implementatio                                                                                                                                                                         n




                                                                                            -            Trainin                                                                                                                      g             Requirements                                                                                                                                                                                                              ,       finding                                                                                            :                Polic                                                                                           y               doe                                               s               no                                          t         includ                                                                          e          information                                                                                                                                     .           W                                           e             concur                                                                                  .




            W                       e             hav                                           e            jus                                            t           complete                                                                                                                                d                a                                we                                              b           base                                                            d                 Personne                                                                                                                        l         Security                                                                                                        Trainin                                                                                                            g              Cours                                                                    e        an                                         d            it                     wil                                             l       b                     e               availabl                                                                                    e




            fo                  r           securit                                                                         y               manager                                                                                                                             s             appro                                                                                       x                   en                             d           o                                f           Fe                                b         06                                         .            Thi                                                                   s           trainin                                                                                         g                wil                                                l               requir                                                               e            securit                                                                                  y             manager                                                                                                          s           t                       o          tak                           e




            a         tes                                   t       t         o                     obtai                                                                    n             credi                                                                            t           fo                                   r              th                                     e              course                                                                                  .           W                                     e        ar                              e                    currentl                                                                                                                   y           i                    n             th                                     e           proces                                                                                s           o                    f           addin                                                                       g            thi                               s               informatio                                                                                                                        n




            t    o              ou                              r       AFI                                                         .       A                                                  policy                                                               notic                                                                                                 e               announcing                                                                                                                                        th                               e                   cours                                                                                      e              wil                                           l           b                          e            disseminate                                                                                                                                          d              i                n                      th                       e            nea                                           r           future                                                                                   ,       whe                                      n




            w               e               hav                                       e               th                                e               actua                                                                         l       dat                                                       e               th                                     e                  cours                                                              e                i                       s            available                                                                                                                    .




                                                                                            Ou                                      r       PO                                                     C                      i               s                 M                                       s               Jea                                                       n               Smith                                                                           ,       AF/A7S1                                                                                                                          ,           DS                                                   N                          425-0011                                                                                                                                 ,           and                                             email:




            j    can.smit                                                                                              h@                                               penta                                                             g                     on.af                                                                        .mil                                                         .




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  DANIE                                                                                                         L                A                                  .           McGARVE                                                                                                                                                  Y




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  Chief                                                                                    ,           Informatio                                                                                                                                   n               Securit                                                                                 y




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   Directorat                                                                                                                                    e         o                            f              Securit                                                                                      y            Force                                                                       s




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            4                         0
Defens                                      e                                 Informatio                                                                                                                                                                                                                                                                  n                            System                                                                                                                                                                         s                          Agenc                                                                                                                                 y                 Comment                                                                          s




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   Fina                  l   Repor                                   t




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          Referenc                                       e




                                                                                                                                                                                                                       DEFENS                                                                                       E                   INFORMATIO                                                                                                                                           N               SYSTEM                                                                                                      S             AGENC                                                                     Y




                                                                                                                                                                                                                                                                                                                                                                                                                            p       .   o           .         BO                     X           4502




                                                                                                                                                                                                                                                                                                                                                                        ARLINGTON,                                                                  VIRGINI                                             A       22204-4502




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         09 MAR 2006

                             Manpower                                                                                    ,     Personnel                                                                                        ,         an                               d




                                            Securit                                                            y             (MPS                                                                   )




         MEMORANDU                                                                                                                                                         M                FO                          R               DEPARTMEN                                                                                                                                               T       O                       F               DEFENS                                                                                   E                 INSPECTO                                                                                                           R                GENERA                                                              L




         SUBJECT                                                                                       :       DO                                                      D              Personne                                                                         l       Securit                                                                        y             Clearanc                                                                           e        Progra                                                       m                     a              t         Requestin                                                                                          g       Activitie                                                 s




             1     .         Th                               e               Defens                                                                     e          Information                                                                                        System                                                                                     s         Agenc                                                   y           (DISA                                                            )     ha                              s       reviewed                                                                                th                              e       draf                  t   report                                        reference                                              d




         abov                                   e             date                                         d        Februar                                                                                   y   15                           ,       2006                                           ,        an                            d            provide                                                           s           thei                                         r       comment                                                                                     s        a                  s          attached                                                                    .   We                    than                              k          th               e   DO            D           I   G




         audi                           t       tea                                         m         fo                       r               th                          e          opportunit                                                                                         y       t         o            participat                                                                                e     i                   n           thi                          s       audi                                    t            an                          d          hop                                           e       w                e        provide                                                  d          usefu                                      l




         informatio                                                                                   n         t                  o                complet                                                                 e       thi                                s           task                                         .




         2.                  W                        e               loo                             k         forwar                                                                       d            t       o     continuin                                                                                           g           t             o               wor                           k           wit                                     h          yo                            u      an                   d                you                                            r        staf                                 f       i        n       th                          e      future                                 .      M                   y          actio                         n




         office                                           r       i                    s        Mr                       .     Ti                                      m               Sullivan                                                                    ,       Chief                                                    ,       Securit                                                         y         Operation                                                                                         s    Branch                                                                              ,       703-607-6147                                                                                                   .    Pleas                                          e   d        o   no           t




         hesitat                                                      e           t             o    cal                               l            Ti                            m               shoul                                            d          yo                             u       wis                                         h            t                o       discus                                                   s             ou                         r    response                                                                               .                  _




          3            Enclosures                                                                                                          :                                                                                                                                                                                                                                                                                                                JACK                                             PENKOSK                                                                                                                               E




             1          DIS                                               A                Respons                                                                                     e                                                                                                                                                                                                                                                                                  Directo                                                r           fo                   r               Manpower                                                                                                 ,




         2             008                                        0              Caree                                                         r             Managemen                                                                                                     t       Pla                                  n                                                                                                                                                        Personnel                                                                            ,       an                             d               Securit                                                            y




         3         Draf                                                t         DO                                  D                     I                    G              Repor                                                t                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         Omitte                                     d




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              enclosure                                          s           2




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              an                 d   3        du             e       t           o




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              length                                 .




                                                                                                                                                                                                                                                                                                                                                                                                                                                                   4             1
                                                                                                                                                                                                                                                                                                                                                                                                                                DODI                                                                     G                DRAF                                                                            T                    REPOR                                                                                                        T




                                                                                                                                                                                                                                                                                                                                                                     Projec                                                     t       Numbe                                                                                             r        D2005-D000CB-013                                                                                                                                                                                                                                                     6




                                                                                                                                                                             DOD                                                            Personne                                                                                                                  l         Securit                                                                 y                Clearanc                                                                                                        e       Proces                                                                                      s           a                       t        Requestin                                                                                                               g             Activitie                                                                                                               s




                      DEFENS                                                                                              E                    INFORMATIO                                                                                                                                                                                               N                      SYSTEM                                                                                                                    S          AGENC                                                                                                           Y                    COMMENT                                                                                                                                                                 S                T                                 O




                     RECOMMENDATIONS                                                                                                                                                                                                                                                                                        :




                    Recommendatio                                                                                                                                                                         n                    #3                                     .        ...Th                                                                         e                Director                                                                                    ,           Defens                                                                                     e           Informatio                                                                                                                                         n                System                                                                                           s        Agenc                                                                                         y              updat                                                                             e




                    policie                                                    s            fo                                     r           th                        e           DO                                                         D                 personne                                                                                                                   l     securit                                                                            y                  clearanc                                                                                                 e                progra                                                                                            m                      to                                includ                                                                            e             th                            e                   followin                                                                                                  g               areas                                                                 :




                    MSA'                                               s               Response                                                                                                                           ;         Concu                                                                                   r             wit                                            h         comment                                                                                                    .       DIS                                                            A            Instructio                                                                                                                         n          240-110-8                                                                                                                       ,            Personne                                                                                                                l         Securit                                                                              y




                 Program                                                                         ,            i                s               alread                                                                     y           unde                                                             r       revisio                                                                                  n           withi                                                     n                 th                                e           Securit                                                                              y               Division                                                                                                      .         Th                                               e        DIS                                                      A              progra                                                                                         m                       i        s        wholl                                                                         y




                 manage                                                                d                 throug                                                                          h            th                                    e           Securit                                                                                     y            Division                                                                                        ,       thu                                              s               DISA'                                                                       s            us                              e                o                        f   DO                                                  D                        Regulation                                                                                                                            s               DIS                                                                  A




                    instruction                                                                                                    s           an                        d           Divisio                                                                                           n               Standar                                                                                              d        Operatin                                                                                                 g               Procedure                                                                                                                s            captur                                                                             e             th                             e           informatio                                                                                                                           n             identifie                                                                                      d                   t                     o           a               n




                appropriat                                                                                            e                dept                                              h            an                                        d             i                s           tailore                                                                              d            t                  o      th                     e        audience                                                                                                           .          Estimate                                                                                                        d           completio                                                                                                                        n               dat                                    e           fo                                     r            th                             e                 revise                                                          d




                 DIS                               A       instructio                                                                                                            n            i                           s           15                                    Ma                                      y                 2006                                                              .




                RECOMMENDATIO                                                                                                                                                                                                                                             N                #3a                                             .        progra                                                                                    m                  managmen                                                                                                                                                      t                responsibilities                                                                                                                                                                                      ;




           DISA'                                                   s           Response                                                                                                                           :               Concur                                                                                          .        Progra                                                                               m                  Managemen                                                                                                                                          t   responsibilitie                                                                                                                                                                          s           ar                             e            mor                                               e            clearl                                                                            y                  define                                                             d                 i                   n




           th                  e         draf                              t           an                                          d                 wil                             l       be                                        o                      f           appropriat                                                                                                                    e           scop                                             e                whe                                                      n             published                                                                                                              .        Estimate                                                                                                               d            completio                                                                                                                       n             dat                                                 e     i            s           1                   5                   May




           2006.




           RECOMMENDATIO                                                                                                                                                                                                                                                   N                    #3b.                                                             agencie                                                                                     s            responsibl                                                                                                                          e                fo                             r                conductin                                                                                                                            g            PSI                                                     s         an                                       d               investigativ                                                                                                                                                e




           responsibilities                                                                                                                                                  ;




          DISA'                                                s           Response                                                                                                                           :               Concu                                                                             r           wit                                                h             comment                                                                                                 .        Th                                             e           Offic                                                              e            o                      f           Personne                                                                                                       l            Managemen                                                                                                                                              t         (OPM                                                                         )       i               s




      responsibl                                                                                                  e           fo                              r      conductin                                                                                                                  g          PS                                            I           investigation                                                                                                                                    s               a                  s       identifie                                                                                             d                i                    n           you                                                    r         report                                                                      ,    an                                d            thi                                             s         i               s                addresse                                                                                           d           i               n




      th                   e        Personne                                                                                                     l         Securit                                                                                  y         Standar                                                                                            d                 Operatin                                                                                       g                  Procedures                                                                                                                             ,      TA                                            B               C                                  ,       paragrap                                                                                                   h            4.                           4              ,                   tha                                     t           wa                                       s        update                                                                            d




      i         n          Novembe                                                                                                     r             2005                                                             .




      RECOMMENDATIO                                                                                                                                                                                                                                                   N                    3e                                         .        securit                                                                              y             clearanc                                                                                                       e            system                                                                                       s            fo                               r               trackin                                                                                          g               securit                                                                                       y                clearanc                                                                                                 e




      information                                                                                                                          ;




      DISA'                                                s           Response                                                                                                                       :               Concur                                                                                            .         Th                                                 e           Join                                     t         Personne                                                                                                         l        Adjudication                                                                                                                                                      s            Syste                                                                    m                    (JPAS                                                                                )           ha                                  s               bee                                       n




  addresse                                                                         d                 i                n                 previou                                                                                       s             Securit                                                                                     y            Directo                                                                          r        Polic                                                                      y            Letter                                                                     s            an                              d                ha                                   s            bee                                             n            incorporate                                                                                                                                  d            int                                             o                 th                 e            draf                                                     t




  Instruction                                                                                    as the sole clearance                                                                                                                                                                                                                                                    verificatio                                                                                                           n             syste                                                              m               fo                                    r          DOD                                                                .               Estimate                                                                                                         d               completio                                                                                                                     n                    dat                                  e           i           s               1                         5




  Ma                               y            2006                                                      .




  RECOMMENDATIO                                                                                                                                                                                                                                                   N                3d                                             .         PS                                               I      submissio                                                                                                                     n            process                                                                                               .




 DISA'                                                 s           Response                                                                                                                       ;               Concu                                                                                    r        wit                                                   h           comment                                                                                               .            Th                                          e           PSI                                      submissio                                                                                                                                     n        proces                                                                           s           i                 s             addresse                                                                                                      d                  i         n           dept                                                       h               i           n




the                            Securit                                                                        y           Divisio                                                                                             n            Standar                                                                                         d             Operatin                                                                                        g                Procedures                                                                                                                              ,           TA                                           B                     C                        tha                                          t            wa                                      s        update                                                                          d                  i                    n                Novembe                                                                                                         r




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                     4                   2
R E C O M M E N D A T I O N 3e, t h e relationship a m o n g the levels of security clearances, types
of PSIs r e q u i r e d for different levels of clearance, a n d scope of investigations to include
d o c u m e n t a t i o n r e q u i r e d for each PSI;

D I S A ' s Response: Concur with comment. The relationships among levels of security
clearances, types of PSIs required for different levels of clearance, and scopes of investigations
to include documentation required for each PSI are covered in DOD 5200.2-R, Personnel
Security Program, and the Security Division SOP, Tabs C and E.

R E C O M M E N D A T I O N 3f. training r e q u i r e m e n t s for security personnel.

D I S A ' s R e s p o n s e : Concur with comment. DISA Security has developed a Career Management
Plan for all GS-0080 Security Specialists which lists the required training suggested for career
development and advancement, A copy of this is attached for your information.

Other Comments:

 1. Regulatory guidance is developed utilizing a cascade effect, that is, they are developed to
address subordinate, specific actions and requirements outlined in Executive Orders, followed by
DOD Directives, Regulations and Instructions. The DISA Personnel Security Program
instruction update has been on hold pending release of the new DOD 5200.2-R, Personnel
Security Program. Subsequent DOD regulations have been published which contradict some of
the investigative requirements within the 2-R. For example, DODI 8500.1, Information
Assurance Implementation, states the minimum investigative requirement for an IT II position
with IA responsibilities is a NACLC, while the 2-R states it is a DNACI/NACI. This contrary
fact is a result of outdated Personnel Security guidance and just one example of the difficulties in
publishing guidance within a service or agency.

2. The Electronic Questionnaire for Investigations Processing (E-QIP) is currently implemented
on a trial basis within the Agency. Selected Agency personnel have begun processing periodic
reinvestigation requests through E-QIP, with full implementation scheduled for 1 April 2006 to
meet the OMB mandate. However, DISA must initiate the investigative request through JPAS,
which does not have a capability to initiate investigations on personnel new to the DOD.
Specifically, if a new hire is not currently in the DOD personnel system, they will not have a
record within JPAS. These cases must be initiated through hard copy SF 86 until USD (I) and
the JPAS Program Management Office develop guidance and corrective actions for this issue.
With the implementation of HSPD-12 looming, DISA will be responsible for submitting
National Agency Checks with Written Inquiries (NACI) investigative requests for personnel
requiring Common Access Cards for entry into DISA facilities. Most of the employees in this
category at DISA are not in JPAS so e-QIP will not be an option to prepare the NACI request to
OPM.

3. E-QIP training sources have not been identified to DISA by USD (I) in response to our
request. DISA has teamed with the Defense Contract Audit Agency and the Defense Logistics
Agency to partner in sharing their knowledge and experience with this new system. DISA, as
well as other Defense Agencies, are learning this system through trial and error




                                                      43
 4. The Security Division has a training program. Each member of the Personnel Security Team
 has completed, at a minimum, the Personnel Security orientation course at the DSS Academy
 Three members of the staff have completed the Basic Adjudications course at the DSS Academy
 One member of the staff has completed the Senior Adjudicator Course at the DSS Academy
formal training within the Division is encouraged. All division personnel are encouraged to
enhance their professional development through the DSS Academy and other sources. The
Personnel Security Team conducts In-house training on various subjects covered within the
Division s Standard Operating Procedure. The team also conducts just-in-time training on new
directives or policies received from USD (I), an example being the requirement to utilize Phased
Periodic Reinvestigations when appropriate. Further, as stated previously, the Security Division
has an approved Career Management Plan that details professional and formal education
recommendations for enhancing career progression.




                                              44
Defens                                          e   Logistic                                                                                                                                      s                        Agenc                                                                                                                                                     y                           Comment                                                                                                                                                                                        s




                                                                                                                                                                                                  DEFENS                                                                                      E           LOGISTIC                                                                                                                 S           AGENC                                                                               Y




                                                                                                                                                                                                                                                                                          HEADQUARTER                                                                                                                                      S




                                                                                                                                                                                                                             8            72                    5         JOH                                          N       J                          .      KINGMA                                                                    N                 ROA                                                  D




                                                                                                                                                                                        FOR                                       T         BELVOIR                                                                                    ,            VIRGINI                                                                A           22060-622                                                                                               1




         IN   REPL             Y                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   MAR                         -7           200               6



              REFER TO DES-S




                                   MEMORANDU                                                                      M       FO                           R             INSPECTO                                                                                                         R           GENERA                                                                                             L           DEPARTMEN                                                                                                             T               O                  F         DEFENS                                            E




                                                                                                                                                                        ATTN                                                          :     Ms                                .   Kimberl                                                                           y        Capri                                             o




                                   SUBJECT                                        :       Revie                           w        o           f           Draf                                           t       Repor                                                   t   o                   n           Do                           D                  Personne                                                                 l   Securit                                                               y      Clearanc                                                         e       Proces                           s       a       t




                                                                                                      Requestin                                    g             Activitie                                                                          s           (Projec                                                    t   No                                        .   D2005-D000CB-0136                                                                                                                                                                        )




                                                                    A        s   requeste                                      d       b               y           you                                        r    lette                                    r       o             f       Februar                                                                   y        15                              ,   2006                                    ,   Subjec                                                     t    a             s           above                                 ,       comment                                          s




                                   regarding                            th                        e       draf        t   repor                                         t        are                                attached                                                              .       Question                                                                                   s           shoul                                      d        b                    e             referre                                    d               t          o       Ms                 .     Ja       n   Storm                                 ,




                                   Chief                   ,   DL                A           Personne                                      l       Securit                                                                    y           Divisio                                                         n        a               t            (703                                     )           767-5416                                                                         .




                                                                                                                                                                                                                                                                                                                                                     CHRISTINE                                                                                 L.       GALLO




                                                                                                                                                                                                                                                                                                                                                     DL                       A                  Enterpris                                                                    e               Suppor                                               t




                                    Attachmen                                         t




                                                                                                                                                       F     e      d        e         ra     l       Recyclin                                          g        Progra                               m                                        Pr                                                                                                                i   n   te               d      o        n   Recycle                                  d       Pape                  r




                                                                                                                                                                                                                                                                                                                                                                              4                  5
                   DLA COMMENTS ON RECOMMENDATIONS


R e c o m m e n d a t i o n 1: We recommend that the Under Secretary of Defense for Intelligence:

                       a.    Update the DoD regulation 5200.2-R, to:

                             (1) Include responsibilities of Under Secretary of Defense for
                             Intelligence, the Defense Security Service Clearance Liaison Office,
                             and the Office of Personnel Management in the areas of program
                             management, oversight, and investigations;

                             ( 2 ) Define systems used for submitting and tracking security clearance
                             information, such as the Joint Personnel Adjudication Systems and the
                             Electronic Questionnaire for Investigations Processing;

                             (3) Define types of personnel security investigations, corresponding
                             security clearance levels, and the required documentation; and

                             (4) Establish minimum training requirements for security personnel
                             including, but not limited to, training on the security clearance process,
                             the Joint Personnel Adjudication System, and the Electronic
                             Questionnaire for Investigations Processing.

                       b . Establish milestones for publishing updated DoD Regulation 5200.2-R.

DLA C o m m e n t s : Concur.

Disposition: Action for Under Secretary of Defense for Intelligence.
       ( ) Action is Ongoing. ECD:
       ( ) Action is considered complete

Recommendation 2: We recommend that the Under Secretary of Defense for Intelligence, in
coordination with Services and Defense Agencies, establish a vehicle to:

                        a.   improve communication of changes to the security clearance process
                             between the Under Secretary of Defense for intelligence and
                             requesting activities;

                        b.   Provide requesting activities a means to voice issues and for DoD and
                             the Office of Personnel Management (as necessary) to expedite
                             resolution; and

                        c.   Identify processes and resources needed to improve oversight of the
                             security clearance process at requesting activities, to include staff
                             assistance.




                                               46
D L A Comments: Concur.

Disposition: Under Secretary of Defense for Intelligence action.
       ( ) Action is Ongoing. ECD:
       ( ) Action is considered complete.

Recommendation 3 : We recommend that the Army Deputy Chief of Staff tor Intelligence; the
Director, Naval Criminal Investigative Service; the Air Force Director of Security Forces,
Information Security; the Director, Defense Information Systems Agency; and the Director,
Defense Logistics Agency update policies for the DoD personnel security clearance program to
include the following areas:

                      a,   program management responsibilities;

                      b,   agencies responsible for conducting PSIs, and investigative
                           responsibilities;

                      c.   security clearance systems for tracking security clearance information;

                      d. PSI submission processes;

                      c.   the relationship among the levels of security clearances, types of PSIs
                           required for different levels of clearance, and scopes of investigations
                           to include documentation required for each PSI; and

                      f.   training requirements for security personnel.

D L A Comments: Nonconcur. The following paragraphs regarding our nonconcurrence
correspond to those listed above:

                      a.   DLA's current program management responsibilities are contained in
                           the DLA One Book Chapter entitled. "Personnel Security Program",
                           Section 4.6 Sub-Process and Responsibilities. Additionally, the
                           program management responsibilities are also contained in the DLA
                           Personnel Security Guidebook, Section F, entitled, Responsibilities;

                      b.   The DLA Personnel Security Program Guidebook contains policy
                           regarding the agencies responsible for conducting PSIs and
                           investigative responsibilities in Appendix C, entitled Request
                           Procedures;

                      c. The DLA Personnel Security Program Guidebook contains
                         Policy on security clearance systems for tracking security clearance
                         information in Section B . 3 . under Purpose, Section 2.b.4 under Field
                         Activity Security Managers, Section 1-336 entitled Joint Personnel
                         Adjudication System (JPAS), and Section 12-101c entitled D O I ;




                                             47
   Fina              l   Repor           t




          Referenc                   e




                                                                                                                                                                       d            .            Th                                      e                PS                                      I            submissio                                                                                                                                           n                  proces                                                                                                                      s            i                       s               containe                                                                                                                                d                       i                     n                  Appendi                                                                                                                                   x               C                                  entitle                                                                                                 d




                                                                                                                                                                                                            Reques                                                                            t             Procedures                                                                                                                                                                ;




                                                                                                                                                                       e        .                Th                                               e            level                                                                        s            o                         f             clearance                                                                                                                                                  ,            type                                                                 s                    o                      f             PSIs                                                                               ,           scope                                                                                  s               an                                                  d                    documentatio                                                                                                                                                                                                   n




                                                                                                                                                                                                                       require                                                                        d                   i                         s         containe                                                                                                                    d                           i                            n                     Chapte                                                                                                       r                2                                entitle                                                                                                    d              Policies                                                                                                                            ,           Chapte                                                                                                          r             3




                                                                                                                                                                                                                   entitle                                                                d                 Personne                                                                                                                                  l        Securit                                                                                                                                  y             Investigativ                                                                                                                                                                                     e                       Requirement                                                                                                                                                                                             s             and                                                               ,




                                                                                                                                                                                                                   Appendi                                                                                                        x                 C                              entitle                                                                                       d                    Reques                                                                                                                            t             Procedures                                                                                                                                                                                   .




                                                                                                                                                                       f    .               DL                                                        A                 ha                                         s                  no                                       t            establishe                                                                                                                                                      d                     writte                                                                                     n                     polic                                                                                       y           regardin                                                                                                                                      g                     trainin                                                                                                         g




                                                                                                                                                                                                            requirement                                                                                                                                               s                fo                                   r           securit                                                                                                                      y                 personne                                                                                                                                     l                sinc                                                                  e                       US                                             D                     (I                                            )            ha                                            s            no                                               t            issue                                                                           d         th                                        e




                                                                                                                                                                                                            trainin                                                                   g                    requirement                                                                                                                                                                    s                       fo                                                     r            DLA'                                                                                        s                implementation                                                                                                                                                                                                                                            .            Th                                                          e                    Defens                                                                                                              e




                                                                                                                                                                                                            Personne                                                                                                          l            Securit                                                                                                    y                Researc                                                                                                                                        h                 Center                                                                                                           ,           i                     n             conjunctio                                                                                                                                                                n                 wil                                                             l            th                                          e                 Join                                                            t




                                                                                                                                                                                                              Securit                                                                         y                    Trainin                                                                                                          g             Consortium                                                                                                                                                                                                   ,       publishe                                                                                                                                    d                       a                         repor                                                                               t                date                                                                d                  Januar                                                                                                    y                    200                                                         4




                                                                                                                                                                                                            entitle                                                           d                   "Preference                                                                                                                                                                     s                an                                                                d                Prioritie                                                                                                                             s                fo                                    r           Professiona                                                                                                                                                                                     l     Developmen                                                                                                                                                                                         t           i                       n




                                                                                                                                                                                                              th                 e            Securit                                                                                                   y             Workforce                                                                                                                                                                         :                A                                       Repor                                                                                                  t            o                                   f        th                                   e                       Professiona                                                                                                                                                                       l        Developmen                                                                                                                                                                                            t




                                                                                                                                                                                                            Survey"                                                                                            .          Th                                                           e                  purpos                                                                                                  e                        o                                 f         th                                 e                  stud                                                                      y                 wa                                                    s           t                               o                 asses                                                                       s                   th                                       e                   stat                                                     e                    o                         f            th                                    e




                                                                                                                                                                                                            securit                                                                   y                    professio                                                                                                                              n                an                                                         d                     th                                          e               nee                                                      d                    fo                                             r           trainin                                                                                                       g            an                                       d                       professiona                                                                                                                                                                                 l




                                                                                                                                                                                                            developmen                                                                                                                                                    t            program                                                                                                                                s                    an                                           d                th                                            e          lac                                                       k                    o                         f               uniformit                                                                                                                                         y                        amon                                                                                       g                         trainin                                                                                            g




                                                                                                                                                                                                            programs                                                                                                                   .        Th                                            e               result                                                                               s                      o                                     f                th                               e            stud                                                                        y                    wer                                                                e           t                               o              b                     e             use                                                                d                     t                  o                  develop                                                                                                                   ,           pla                                                  n




                                                                                                                                                                                                            an                       d                implemen                                                                                                                                            t     trainin                                                                                                           g                     program                                                                                                                                s               fo                                                r           th                                e                   Securit                                                                                                           y                        workforce                                                                                                                                                     ;            however                                                                                                                ,




                                                                                                                                                                                                            US                                    D                (I                             )            provide                                                                                                          d                 n                           o                    implementin                                                                                                                                                                                                              g                    polic                                                                                     y                 o                     r          guidance                                                                                                                                             ,         no                                              r               di                                d                    the                                                 y




                                                                                                                                                                                                            establis                                                                                  h                 certificatio                                                                                                                                                  n                       requirement                                                                                                                                                                                                       s                fo                                    r            Personne                                                                                                                                     l                Securit                                                                                                                  y                 Specialists                                                                                                                                            .




                                                                                                                                                                                                            Althoug                                                                                            h                      DL                                                     A                     ha                                      s             no                                                            t           unilaterall                                                                                                                                                          y                    establishe                                                                                                                                           d                    mandator                                                                                                                                                                     y               trainin                                                                                                     g




                                                                                                                                                                                                            progra                                                                    m                            requirement                                                                                                                                                                            s                       fo                                              r         DL                                                         A                         Personne                                                                                                                                                      l        Securit                                                                                                                y                   Specialists                                                                                                                                                         ,            w                               e




                                                                                                                                                                                                             hav                                      e         institute                                                                                                                    d                interna                                                                                                              l               trainin                                                                                                         g             program                                                                                                                                       s                   t                 o             include                                                                                                                    :            a                           biennia                                                                                                              l




                                                                                                                                                                                                             Personne                                                                                                         l            Securit                                                                                                    y                Worksho                                                                                                                                                      p                      fo                                      r               th                                            e           sol                                                   e                    purpos                                                                                                       e                 o                              f           trainin                                                                                                  g               DL                                                           A




                                                                                                                                                                                                              Personne                                                                                                        l            Securit                                                                                                    y                Specialist                                                                                                                                                            s                     o                      n                    curren                                                                                                      t               issues                                                                                    ,           initiatives                                                                                                                                                            ,         an                                       d




                                                                                                                                                                                                             securit                                                                  y                    clearanc                                                                                                                       e               system                                                                                                                            s               o                       f                valu                                                                       e                    t                   o             Personne                                                                                                                                  l           Securit                                                                                                                         y                      Specialist                                                                                                                                          s




                                                                                                                                                                                                             acros                                                      s      th                                            e              Enterprise                                                                                                                                                ;               a                                     thre                                                          e                 da                                        y                    trainin                                                                                                         g                           sessio                                                                                n                            fo                                      r              al                              l           ne                                               w




                                                                                                                                                                                                              Personne                                                                                                        l            Securit                                                                                                    y                Specialist                                                                                                                                                                s                 a                  t                Headquarters                                                                                                                                                                                                ,         upo                                                                          n                    initiall                                                                                                y                 reportin                                                                                                           g




                                                                                                                                                                                                              fo                 r           duty                                                          ,            fo                                    r               trainin                                                                                        g                    o                                        n                    al                                  l           matter                                                                                                  s                relativ                                                                                                         e             t                o             Personne                                                                                                                                               l           Securit                                                                                                                y           a                           t




                                                                                                                                                                                                              DLA                                                      ;     frequen                                                                                                                  t       email                                                                                       s                   wit                                                               h                instruction                                                                                                                                                                   s          o                                        n              an                                  y                change                                                                                                                      s             t                     o                    th                                       e




                                                                                                                                                                                                             Personne                                                                                                             l         Securit                                                                                                   y                Progra                                                                                                                       m                         suc                                                         h                    a                                 s               detaile                                                                                                    d            instruction                                                                                                                                                                     s             o                                n              th                                       e               us                                  e               o                   f




                                                                                                                                                                                                              the                            Electroni                                                                                                                                 c                  Questionnair                                                                                                                                                                                                e                 fo                                   r                Investigation                                                                                                                                                                                               s            Processing                                                                                                                                                                             ;             and                                                         ,       annua                                                                           l




                                                                                                                                                                                                              Securit                                                                         y                        trainin                                                                                          g                fo                               r                   al                                               l            DL                                                        A                       organizationa                                                                                                                                                                                                                 l      Securit                                                                                                                    y                  Representative                                                                                                                                                                                                                 s




                                                                                                                                                                                                             (collatera                                                                                                                l        duty)                                                                           .




                                             Link           s       t        o       th               e        reference                                      d            On                                      e          Boo                                                 k                       Chapte                                                                                                        r           an                                   d                    DL                                                                             A                      Personne                                                                                                                                                 l           Securit                                                                                                         y            Guideboo                                                                                                                                                               k                      wer                                                            e




                                             provide                             d        t       o       th                   e     Do               D   I       G                     tea                               m                   o                    n           tw                                                     o                 separat                                                                                                e             occasions                                                                                                                                                                     .           Additionally                                                                                                                                                                                                 ,        th                                      e                   offe                                                                    r        t                      o                provid                                                                                                        e           har                                                 d




                                             copie              s       wa                    s       offere                                  d   o       n   severa                                                                 l        differen                                                                                                            t           occasion                                                                                                                                        s                    an                                           d                a                           cop                                                           y                        wa                                                 s               emaile                                                                                                 d                  t                               o                 a                          tea                                                m                                 member                                                                                                                       .




                                             Miscellaneou                                                                  s       editoria                                             l        comments                                                                                                                                       :




                                                                                                                                                                       a        .             Unde                                                                      r     Acronyms                                                                                                                                                        ,       chang                                                                                                                  e              DES-E                                                                                                          ,            acrony                                                                                                                     m                       liste                                                             d                           fo                                   r                Defens                                                                                                                e




Revise                           d


                                                                                                                                                                                                              Logistic                                                                                         s                  Agenc                                                                                             y             Suppor                                                                                                                               t            Europe                                                                                                                  ,           to                                    DES-DE                                                                                                                               .             Chang                                                                                                                       e               al                                     l         reference                                                                                                                             s




                                                                                                                                                                                                             throughou                                                                                                                          t        th                                       e            repor                                                                          t               t                                o                     DES-DE                                                                                                                                        .




                                                                                                                                                                                                                                                                                                                                                                                                                                                          4                           8
                                                                                 Final Report
                                                                                  Reference




b.   Page 7, the correct title of the SF 86 is the "Questionnaire for National   Revised
     Security Positions" vice "Questionnaire for Sensitive Positions".
                                                                                 Revised
c.   Pages 11 and 15, state that "DLA did not provide updated policy" and
     the policies did not contain complete information on the PSI
     submission processes nor types of PSI or scopes. This is
     incorrect. The One Book and information regarding the D L A
     Personnel Security Guidebook was discussed with the audit team
     during the initial meeting. The links to the One Book and the
     guidebook were provided by email to the audit team, along with an
     offer to provide the DLA policy via hard copy. The team had
     difficulty connecting to the One Book site and the D L A Helpdesk
     worked with the IG Helpdesk to establish connectivity and we again
     offered hard copies. We were advised by email that they were
     eventually successful in connecting to the One Book site. Several
     months later, new members to the team were experiencing the same
     problems and we again provided technical assistance as well as an
     offer to provide hard copies. Additionally, upon reviewing the "Draft
     Report for Discussion Only" the team was advised that it didn't appear
     that they had accessed the "DLA Personnel Security Program
     Guidebook" which contains the policy that they indicate we did not
     provide. A copy of the guidebook was then provided by email,
     however, it still appears that it was not reviewed since they state that
     we did not provide updated policy.




                       49
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Kimberley A. Caprio
Riccardo R. Buglisi
Carol N. Gorman
Melissa M. McBride
Susan R. Ryan
Shantiki S. Sanders
Rachel M. Miller
Antwan M. Jackson
Jillisa H. Milner
